<html>
<title> - OVERSIGHT OF THE FEDERAL EMERGENCY MANAGEMENT AGENCY'S RESPONSE TO THE BATON ROUGE FLOOD DISASTER</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


OVERSIGHT OF THE FEDERAL EMERGENCY MANAGEMENT AGENCY'S RESPONSE TO THE 
                       BATON ROUGE FLOOD DISASTER

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    TRANSPORTATION AND PUBLIC ASSETS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 9, 2016

                               __________

                           Serial No. 114-78

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                                ____________
                                
                                
                          U.S. GOVERNMENT PUBLISHING OFFICE
22-277 PDF                       WASHINGTON : 2016

________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fd9a8d92bd9e888e899598918dd39e9290d3">[email&#160;protected]</a>  
              
              
              
              
              
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
THOMAS MASSIE, Kentucky              BRENDA L. LAWRENCE, Michigan
MARK MEADOWS, North Carolina         TED LIEU, California
RON DeSANTIS, Florida                BONNIE WATSON COLEMAN, New Jersey
MICK, MULVANEY, South Carolina       STACEY E. PLASKETT, Virgin Islands
KEN BUCK, Colorado                   MARK DeSAULNIER, California
MARK WALKER, North Carolina          BRENDAN F. BOYLE, Pennsylvania
ROD BLUM, Massachusetts              PETER WELCH, Vermont
JODY B. HICE, Georgia                MICHELLE LUJAN GRISHAM, New Mexico
STEVE RUSSELL, Oklahoma
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
                          Mike Howell, Counsel
                          William Marx, Clerk
                                 ------                                

            Subcommittee on Transportation and Public Assets

                     JOHN L. MICA Florida, Chairman
MICHAEL R. TURNER, Ohio              TAMMY DUCKWORTH, Illinois, Ranking 
JOHN J. DUNCAN, JR. Tennessee            Member
JUSTIN AMASH, Michigan               BONNIE WATSON COLEMAN, New Jersey
THOMAS MASSIE, Kentucky              MARK DeSAULNIER, California
GLENN GROTHMAN, Wisconsin, Vice      BRENDAN F. BOYLE, Pennsylvania
    Chair
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 9, 2016................................     1

                               WITNESSES

The Hon. John Bel Edwards, Governor, State of Louisiana
    Oral Statement...............................................    10
    Written Statement............................................    14
Mr. Tony Robinson, Regional Administrator, Federal Emergency 
  Management Agency
    Oral Statement...............................................    19
The Hon. JR Shelton, Mayor, Central, Louisiana
    Oral Statement...............................................    21
    Written Statement............................................    24
The Hon. Gerard Landry, Mayor, Denham Springs, Louisiana
    Oral Statement...............................................    27
    Written Statement............................................    30
The Hon. Rick Ramsey, Mayor, Walker, Louisiana
    Oral Statement...............................................    37


 
OVERSIGHT OF THE FEDERAL EMERGENCY MANAGEMENT AGENCY'S RESPONSE TO THE 
                       BATON ROUGE FLOOD DISASTER

                              ----------                              


                       Friday, September 9, 2016

                  House of Representatives,
  Subcommittee on Transportation and Public Assets,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9:38 a.m., in 
Room 2154, Rayburn House Office Building, Hon. John L. Mica 
[chairman of the subcommittee] presiding.
    Present: Representatives Mica, Chaffetz, Duncan, Grothman, 
Duckworth, and DeSaulnier.
    Also Present: Representatives Scalise, Graves and Richmond 
of Louisiana, .
    Mr. Mica. Good morning. I would like to call the 
Subcommittee on Transportation and Public Assets to order. And 
this morning's hearing, which is part of the Committee on 
Oversight and Government Reform, will focus on oversight of the 
Federal Emergency Management Agency's response to the Baton 
Rouge and Louisiana flood disaster.
    I'm pleased to welcome everyone. Without objection, the 
chair is authorized to declare a recess at any time. And the 
chair is also very pleased to note the presence of our 
colleagues from Louisiana, Congressman Garret Graves of the 
Sixth district, and also Congressman Cedric Richmond of the 
Second district, both of whom represent the affected area.
    We appreciate again your participating in today's hearing 
and welcome your participation today, along with the witnesses 
that have been assembled.
    The order of business will be that, first, I will ask a 
unanimous consent agreement with our minority that Congressmen 
Graves and Richmond will be able to provide witness testimony 
at the beginning of our hearing and then participate in the 
member questions, along with our remaining witnesses later, in 
the hearing. Without objection, so ordered.
    I ask also unanimous consent that Congressmen Graves and 
Richmond be allowed to fully participate in today's hearing. 
And also without objection, so ordered.
    The balance of the order of business today will be opening 
statements by myself, the ranking member, Ms. Duckworth. We'll 
also leave the record open for an additional period of time. I 
guess it will go for 1 week.
    Ms. Duckworth. That sounds wonderful.
    Mr. Mica. Without objection. And other members may submit 
statements.
    So with that, I will open with an opening statement, and as 
I said, we'll proceed with the order described, then we'll 
recognize and swear in our witnesses, and we'll proceed with 
the hearing in that order and have questions after all of the 
witnesses have been heard.
    So with that, again I welcome everyone to this important 
oversight hearing. I had the opportunity to be part of a call 
from our leadership on our side of the aisle a little less than 
2 weeks ago, and in that conversation we talked about the most 
important issues facing the Congress in the month will be in, 
in September, prior to the recess, and top on the agenda was 
dealing with the emergency situation and the Federal response 
in the Baton Rouge flood disaster area. And that issue was 
brought to the conference and leadership attention by 
Congressman Graves. That conversation took place on a Thursday. 
On Sunday--well, Friday we made plans for me to visit the 
affected area, and with the cooperation and direction of 
Chairman Chaffetz went down and personally spent most of Sunday 
and all of Monday touring the area, visiting the affected 
sites, both on the ground and from the air, meeting with local 
officials to assess where we were.
    Chairman Chaffetz has also agreed, because of the emergency 
nature of the situation we find ourselves in, to have this 
subcommittee hearing at this point. And I think that's very 
important, that we conduct immediate and thorough oversight, 
particularly in a disaster of this magnitude.
    As we all know, on August 11, 2016, we had a natural 
disaster in the Baton Rouge area of Louisiana that brought 
torrential rains, probably a 1 in a 1,000 year storm. That 
storm and the water which inundated tens of thousands, in fact 
we estimate--right now we have over 143,000 claims--that storm 
did incredible damage in a very unique manner. The damage 
estimates are incalculable right now, but I can tell you that 
more than a quarter of a million people have been displaced 
from their home and many people are still in shelters. I think 
yesterday I got the report of over 800 still in shelters. When 
I was there a week ago there were 2,000.
    This is a unique natural disaster in its implications again 
of its size and scope. It is also unique in that most of the 
country is not paying attention to again one of the most 
impactful natural disasters we've had in our country probably 
since Hurricane Katrina. We've got some photos too that we 
brought back. The devastation is sprawling and endless, it's 
community after community, subdivision after subdivision. You 
can see people's--the contents of their home in the streets.
    The Louisiana folks are the finest folks I have ever met in 
the face of a disaster who have helped neighbors and friends 
and family gut their homes, but both the contents and the parts 
of the structure that again were damaged are all in the 
streets. And this goes on mile after mile, neighborhood after 
neighborhood, town after town.
    About 80 percent of the homeowners did not have flood 
insurance because their homes were not located in a federally 
identified area that alerted them or considered that those 
areas would flood according to the maps produced by the Federal 
Government.
    After meeting with dozens of State officials, business 
leaders, and Federal officials, my investigation and our work 
down there on that visit discovered some of the response by 
FEMA was not acceptable and we, unfortunately, learned from 
this disaster and that visit some huge deficits in our Federal 
response.
    We went through Hurricane Katrina and some other disasters. 
We had a $2.7 billion fiasco with trailers, some of which were 
found to have formaldehyde, but we spent all that money, time, 
and FEMA was to be able to address a natural disaster, one of 
this nature, with some housing.
    When I arrived more than 2 weeks afterwards, there was one 
unit--put that photo back up--there was one modular unit that 
had been constructed--go back one more. If you look behind the 
debris, that was the single FEMA modular unit; 143,000 homes 
uninhabitable, and 2.1 weeks later, that was the only unit. 
There were 73 units that were not deployed in a field that I 
visited and I was told another 40 in another field, even though 
250 sites had been approved for receiving those units.
    We also found that there were many problems with those 
units because, first, the cost is about $60,000 and then it was 
about $20,000 to transport and erect those structures. So we 
had one up. Not an acceptable response.
    FEMA should have learned from the mistakes of Katrina. 
Unfortunately, they were not ready for this disaster, they did 
not have housing. As of Friday, I was told it there were 17 of 
those units now up. Again, 143,000 homes uninhabitable, more 
than a quarter of a million people displaced, and we have 3 
weeks later possibly 17 units. Now I'm told it may be a lower 
number, but that is not an acceptable Federal response.
    The constant theme, unfortunately, has been FEMA's 
nonresponsiveness and sometimes providing contradictory 
information. When we visited Denham Springs, met with the mayor 
and we'll hear from him. Denham Springs, probably 80 percent of 
the structures were affected in that town, probably 50 percent 
of their business area was destroyed, probably will never come 
back. They did not have a disaster recovery center until 19 
days after the flood.
    I met with the mayor, and the mayor actually, his point of 
contact was on a slip of paper he showed me. He finally got a 
contact, almost 3 weeks after the disaster, in one of the most 
hard-hit cities in Louisiana. That's not an acceptable response 
from FEMA.
    And then emergency water, we heard repeated stories of FEMA 
water, which is supposed to be located to go in, took days, 4 
to 5 days to actually get there. Only through the good graces 
and assistance of neighbors and friends did they have fresh 
water at some of these sites.
    We need to determine how many leftover, wasted funds from 
Hurricane Sandy that we could reuse and put towards Baton 
Rouge. We need to carefully examine all of the things that went 
wrong with FEMA and correct them for the future. No community 
or State should endure what has occurred in the Federal 
response to the natural disaster in the Baton Rouge area.
    I encouraged all those dealing with FEMA when I was there 
to make certain that they had taken names, got commitment in 
writing for everything they are going to do, because they have 
already seen hundreds of people come in from all around the 
country making commitments and these people will soon be gone. 
And already we've had the confusion of FEMA giving certain 
commitments to individuals and other folks at different levels 
of FEMA coming in and giving a counter opinion.
    So we're not in a very good situation. We've got to do 
better. And I know both sides of the aisle are committed to 
help in this situation.
    Let me yield to Ms. Duckworth, and then I want to yield a 
couple minutes to our chair.
    Ms. Duckworth. Of course. Thank you, Mr. Chairman. I'd like 
to thank you for holding this hearing today. It's an important 
hearing because it's an opportunity to make sure that the 
Federal Government, and in particular FEMA, is doing everything 
it can to help the victims of this flood in Louisiana.
    This hearing is also an opportunity to examine how FEMA's 
response to natural disasters has evolved since Hurricane Sandy 
in 2012 and how much has improved since the disastrous response 
to Hurricane Katrina in 2005.
    The torrential rains that hit Louisiana over the last few 
weeks have been described as a 1 in a 1,000 year event. Some 
areas received as much as 2 feet of water during the rains and 
river levels rose to record highs, in some cases reaching as 
high as 6 feet. The harm inflicted was vast, flooding more than 
100,000 homes and forcing thousands of families to flee.
    FEMA deserves credit for being prepared to respond quickly 
to this massive natural disaster, and I commend President Obama 
for expediting the major disaster declaration on the very same 
day that Governor Edwards requested it. While FEMA must 
continue working to improve its emergency preparedness and 
response efforts, it is important to recognize that in a short 
space of weeks since the flooding FEMA has released over $450 
million to help individual flood victims, placed 2,717 families 
in hotels and motels, and deployed 333 manufactured housing 
units to the region. As Governor Edwards noted, ``From the very 
beginning of this event, FEMA has been by our side,'' and, 
``responsive to all of our requests.''
    Of course government is only one component of a 
comprehensive response. Americans from all walks of life have 
stepped forward to help the victims of flooding in Louisiana. I 
know from personal experience that engaging with our 
communities and helping others fosters a sense of shared 
sacrifice. At a time when our politics seems more focused on 
tearing us apart than bringing us together, that shared 
sacrifice will help us rekindle the national unity that has 
made us the strongest Nation in the world.
    During painful times of disaster and hardship is when we 
most need to come together in service to one another. I've been 
inspired by hundreds of AmeriCorps members who deployed to the 
flooded areas of Louisiana to assist with recovery operations.
    The leadership of these Americans who are devoting time to 
helping others is why I joined forces with Congressman John 
Lewis and my fellow combat veteran Seth Moulton to introduce 
the 21st Century American Service Act, which seeks to ensure 
that all young Americans have an opportunity to serve their 
country through civilian national service. The efforts of FEMA 
Corps and AmeriCorps disaster response teams to support shelter 
operations, home cleanup operations, survivor call centers, and 
disaster survivor assistance teams is a real world example of 
how national service can be a force for good in our communities 
and effect real change in American lives.
    I look forward to the testimony of our witnesses and thank 
you, Mr. Chairman, for holding this hearing today. I yield 
back.
    Mr. Mica. I thank the gentlelady.
    Chairman Chaffetz.
    Mr. Chaffetz. Thank you. And, Chairman Mica, I want to 
thank you for your leadership on this in going down and 
visiting in Louisiana, taking time away from your family and 
your schedule for one of the worst disasters that we've had.
    So Governor, Mayors, thank you so much for being here.
    And for the FEMA representative we appreciate you being 
here too. But you know what, FEMA? You got to get your act 
together. This response so far, what I have been able to see, 
the pictures, it ain't good enough.
    You know, Elijah Cummings talks about this a lot in our 
committee. We spend billions of dollars, everybody comes in and 
testifies that everything is good and we're ready. And then 
when it really, really rains--I mean, my State, we get what, 16 
inches of rain maybe in an entire year? You all got 30-plus 
inches in 36 hours, I'm told. You got tens of thousands of 
people whose every bit of what they have in their homes is 
sitting out in their front yard, they can't even touch the toys 
that they have. And you've got a dozen of this and a dozen of 
that. It doesn't cut it.
    So I hope we have as candid a discussion as possible, but 
the response we have seen thus far is not acceptable. And we 
will keep dragging you up here in front of this committee 
because we hear it's all good, and then when it happens it 
ain't so good.
    And these are real people's lives. This should not be a 
partisan issue, it is not a partisan issue. But when you have 
such catastrophic failure in trying to protect the people who 
need the help the most and we're closing in on a month later, 
come on.
    So we expect some real answers, some real dates, and we are 
going to watch this every single step of the way. But I tell 
you what, your first 3 weeks, FEMA, not so good, and it's not 
acceptable.
    So I appreciate you having this hearing. And I want to have 
some real candid talk about what the reality is happening and 
how we are actually going to solve it.
    Thank you. I yield back.
    Mr. Mica. In accordance with our unanimous request, I'll 
recognize Mr. Graves, the gentleman from Louisiana.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman. I want to 
thank you for hosting this hearing.
    Congresswoman Duckworth, you as well.
    Thank you, Chairman Chaffetz.
    I appreciate you all bringing attention to this issue.
    Look, you all are aware of the statistics. The last time I 
talked to FEMA this flood event has received one-half the 
national media attention that the South Carolina floods 
received. And while it is never a good idea, I think, to 
compare disasters because there is such personal tragedy in 
them, it is amazing that there has been such a lack of urgency 
and knowledge and understanding of what's happened.
    This is a 1,000-year flood event. A 1,000-year flood event. 
This is something, and I'm going to rip a line on from Mayor 
Shelton, this event could happen in any city. And I understand 
that the folks who say: You know what, it's not in my State, I 
don't care, it's not affecting my constituents. It does, 
because what happens here, the precedent, allowing 
lackadaisical attitudes, allowing lack of priority, has a 
profound effect on what happens to our constituents.
    But when you have a disaster, whether it's an earthquake, 
an avalanche, a volcano, a flood, a hurricane, no matter what 
it is, a terrorist attack, it is going to go have a profound 
effect, because if you let things slide, if you let folks take 
a lackadaisical approach here it's going to be the same thing 
in your State.
    You know, I've tried to communicate with other Members of 
Congress to compare this disaster. Chairman Chaffetz just 
talked about the fact that it was 31 inches of rain and 
comparing to other places. The national American rainfall, the 
average rainfall for this country, is less than that and we got 
it in 36 hours.
    Put that in perspective: 7 trillion gallons of water--7 
trillion. The reality is this. The Stafford Act is entirely 
insufficient to respond to this disaster. It is entirely 
insufficient. You can play tens of thousands of times over 
where people in south Louisiana are upside down in their 
mortgage, their jobs are underwater literally, their cars have 
flooded out, they've lost their clothes, they have nothing. And 
we have got to increase the urgency of the response here.
    This has been an amazing community watching what's happened 
in south Louisiana. Everybody at home talks about the Cajun 
Navy. We didn't sit around and wait for people to come rescue 
us. We got together and rescued our own people. We did it. 
People trashing their boats, putting their lives on the line, 
their safety at risk to go rescue one another.
    We had the Cajun shelter set up where people opened up 
their homes, businesses, churches and everything to shelter 
people. Cajun chefs popped out, pulling their barbecue grills 
out, cooking for tens of thousands of people. And the Cajun 
Army got together, and the Cajun Army did an amazing job going 
through and stripping and gutting tens of thousands of homes in 
south Louisiana.
    Let me be clear, this wasn't because anybody directed them 
to do it, it wasn't because they were paid to do it. They did 
it because that's what our community is about.
    But now we're in this position where the volunteerism, the 
generosity, the selflessness, it can't get us further. Now 
we're to the point to where we actually need help. The housing 
unit progress is absolutely unacceptable.
    The fact that NOAA can come out in 2 weeks and say that 
this is attributable to climate change, fascinating to me. I 
couldn't even imagine that scientific calculation. This is 
attributable to climate change, but they can't tell John Doe 
whether he's going to get a house or not, whether he is going 
to have a place to live, still living in their moldy homes, 
still living in a tent, still living in a car. It is amazing 
what can happen when you prioritize things. If you have a 
political agenda you can make something happen.
    And talking about urgency again, in 2 weeks NOAA can come 
out and do complex calculations to determine this is the result 
of climate change. Yet in 30 years the United States Army Corps 
of Engineers can't deliver the Comite Diversion Project that 
was authorized by this Congress in 1986.
    I don't know how many times we're going to continue this 
stupidity of spending billions of dollars after a storm instead 
of millions before making our communities more resilient. It is 
absolutely absurd and this has a profound impact on the 
individual lives of many, many folks in south Louisiana.
    The parish that two of these mayors here represent, 
Livingston Parish, initial estimates are that 86 percent of the 
homes and 91 percent of businesses were flooded. Think about 
that for just a minute: 86 percent of the homes and 91 percent 
of the businesses. It has devastated communities. It has 
absolutely devastated them. It has crippled them.
    Mr. Robinson, I appreciate you being here and we've worked 
together for a long time. And again, I really do appreciate you 
being here. This is projected to be the fourth-most costly 
flood event in the United States history. I'm really scratching 
my head as to why Mr. Fugate is not here today. I don't 
understand that. I don't understand why he is not here.
    This is a huge event. The Stafford Act, as I said before, 
we are blowing the sideboards off of Stafford Act. The White 
House needs to send an emergency supplemental request, 
including the unmet needs package of CDBG and other things to 
help address this, to help us recover. We need to have a more 
robust flood protection projects funded like Comite, Amite, 
Parish flood control projects, and others to help lower the 
base foot elevation in this region. These things need to happen 
and they need to happen right now.
    I'm going to yield back. I just want to, Mr. Chairman, very 
quickly note that we are joined by a number of folks that have 
been down there in the trenches through this disaster. In 
addition to this esteemed panel, the Governor and the mayors, 
we have the Lieutenant Governor, Billy Nungesser; we have our 
commissioner of agriculture, Mike Strain; State senator, 
chairman of the Homeland Security Committee, Bodi White; a 
number of other leaders from the State of Louisiana, and folks 
who have been in the trenches and tireless in their efforts to 
help recover. And I am looking forward to working with my 
friend Congressman Richmond over there on a full recovery 
package.
    Thank you. I yield back.
    Mr. Mica. Thank you, Mr. Graves.
    And according to our unanimous consent request, I recognize 
the gentleman from Louisiana, Mr. Richmond.
    Mr. Richmond. Thank you, Chairman Mica, for convening this 
hearing and thank you for taking the time to come down to 
Louisiana.
    Let me thank Representative Duckworth, who has recently 
been to Louisiana, for her commitment to making sure that the 
people of Louisiana recovery quickly.
    Let me just thank our Governor, our mayors, and Regional 
Administrator Robinson for being here today, because what you 
will do is shed light to what is actually happening on the 
ground.
    My district took a hit in this storm, not as much as other 
congressional districts. But I lived through Katrina and Rita, 
and when we start talking about damage and we start talking 
about things, the one thing we have to remember, in Katrina we 
lost 1,500 lives. And we learned a very valuable lesson, and 
that was that the FEMA we had during Katrina and Rita was a 
FEMA that just didn't work, a FEMA that didn't make any sense.
    It has gotten a little bit better, but a lot of the rules, 
and I just want to be clear about it this because I want the 
mayors to understand that a lot of rules that FEMA are 
operating under are rules that are set up by this United States 
Congress. And that Stafford Act, which is just a colossal mess, 
is our Stafford Act. And when I got here and I was elected, I 
took my memories of Katrina and Rita and introduced the FEMA 
Reform Act, which has not seen the light of day because it just 
has not been a priority.
    So I would hope that both sides can come together, 
especially after South Carolina, West Virginia, and all of the 
other disasters that FEMA has to respond to, so that we can 
make things make sense. And I think that you have to give the 
FEMA Administrator the ability to waive the provisions of the 
Stafford Act when there is a different way that could create 
substantial savings. It makes no sense to me that we would 
spend $60,000 to $80,000 to bring in a trailer when that 
$60,000 to $80,000 dollars could make that homeowner whole. But 
we can't, because the Stafford Act says that we cannot put any 
money into permanent housing. That's not a FEMA problem, that's 
a Congress problem.
    And let me just take a moment to thank the President for 
his continued communication and his declaration. Many people 
talk about the fact that we got to 90-20 yesterday in terms of 
percentage.
    But the speed in which the disaster declaration was given 
is attributed to a couple of people, one of which is the 
Governor, who could have chosen to do paperwork and send it in, 
but he decided to take our FEMA representative Stoller on a 
flyover of Central, of Denham Springs, and all of the areas 
that were affected so that when he sent the letter up the 
answer came back the same day to give that disaster 
declaration, which then opened the doors for relief.
    The problem is the relief that our citizens want and the 
relief that they need and the relief that they deserve is tied 
up in red tape, and we have an obligation to come together as 
Republicans and Democrats to help ease that red tape.
    I just want us to understand what is happening. We talk 
about the American Dream. People work hard their whole lives to 
invest in a home, which is the best way to transfer wealth to 
your next generation and leave a legacy. You work very hard, 
you get that home, you have your piece of the American Dream. 
You put your family photos in there, you put your wedding gown 
in there, you put your kids' report cards and the happy 
birthday notes and the father's day and the mother's day notes, 
and in one day you lose everything you ever had. And you can't 
replace it.
    But it's upon government to at least help to replace the 
bricks and the mortar, the value that that home carries in 
terms of the wealth it leaves to the next generation. And we 
should come together as a Congress to pass a supplemental.
    And, look, the President should send us a supplemental, but 
the delegation has to be on board. And I'm saying right now 
that our Louisiana delegation should unanimously request from 
the President a supplemental. That way it is crystal clear that 
our delegation supports it, the President supports it, and we 
can help move it through Congress.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you, Mr. Richmond and also Mr. Graves. I 
can't imagine what the two of you have been through. Again, 
I've never seen anything like it in my 24 years, and I've been 
to disasters in the Dakotas, Iowa, of course before in 
Louisiana and Florida.
    And then I have to comment, you had mentioned everything 
these people owned. I was with Mr. Graves and we went into one 
house that had been gutted. And you mentioned the photographs. 
That was all that was left, was water-damaged photographs on 
the floor of the gutted house. It almost brings you to tears, 
because then you see in the front yard the rest of their 
possessions. Just an unbelievable situation of which the public 
and the Congress, it doesn't seem like it's really on the radar 
screen.
    I'm pleased this morning to welcome a distinguished panel 
of witnesses. Incidentally, we're going to hold the record open 
for a week, as I said, for other members who would like to 
submit statements. But we'll turn now to our panel of witnesses 
and I'll recognize them.
    Let me introduce them. First, welcome Honorable John 
Edwards, Governor of the State of Louisiana; Mr. Tony Robinson, 
regional administrator of the Federal Emergency Management 
Agency; the Honorable Jr. Shelton, mayor of Central, Louisiana; 
the honorable Gerard Landry, mayor of Denham Springs; and also 
the Honorable Rick Ramsey, mayor of Walker, Louisiana.
    Welcome all of you. I don't know if you've testified 
before. We ask you to try to keep your testimony to about 5 
minutes. And we upon request through the chair or a member will 
submit additional data or information into the record. It'll be 
made part of the record.
    This is an investigations and oversight subcommittee of 
Congress, and we do swear in all of our witnesses. So if you 
will please stand to be sworn.
    Raise your right-hand. Do you solemnly swear or affirm that 
the testimony you are about to give to this committee of 
Congress is the whole truth and nothing but the truth?
    Let the record reflect that all the witnesses answered in 
the affirmative.
    And with that, again I welcome all of the witnesses. Let me 
recognize distinguished Governor John Edwards of Louisiana.
    Welcome, sir, and you are recognized.

                       WITNESS STATEMENTS

                 STATEMENT OF JOHN BEL EDWARDS

    Governor Edwards. Good morning, Chairman Mica, thank you 
very much for the opportunity to be here, Ranking Minority 
Member Duckworth, members of the subcommittee. I appreciate the 
fact that Chairman Chaffetz was here. And I also want to thank 
Congressman Richmond and Congressman Graves.
    I want to thank you for the opportunity to be here today to 
serve as a voice for the incredible people of Louisiana, who 
happen to be the most resilient people I know. I'm also proud 
to be joined today by Lieutenant Governor Nungesser and Ag and 
Forestry Commissioner Mike Strain.
    First, Mr. Chairman, I want to thank you for taking the 
time to travel to Louisiana to witness the devastation 
firsthand. It really is hard to imagine what the people of 
Louisiana are going through without seeing it for yourself, and 
we thank you for bringing attention to this disaster.
    Last month, an unnamed storm dropped over 7 trillion 
gallons of rain in south Louisiana, flooding more than 100,000 
homes and claiming 13 lives. Roughly 30,000 search and rescues 
were performed, with 11,000 citizens being sheltered at the 
peak of the flood. There were 19,900 Louisiana businesses and 
278,500 Louisiana workers disrupted by this flood.
    To put the truly historic nature of this flood into 
perspective, south Louisiana received more rain in 48 hours 
than the Mississippi River discharges into the Gulf of Mexico 
in 18 days. It was a once in a 1,000 year storm event that left 
three times as much rain in Louisiana as Hurricane Katrina did 
11 years ago.
    And while the storm didn't have a name, every person that 
it affected does. Homes and businesses that had never flooded 
before were suddenly under water. Many families lost 
everything, not just their homes. They lost priceless 
possessions that no amount of assistance can ever replace. 
Entire communities were uprooted, children were left without 
schools to return to, and thousands of small businesses, the 
cornerstones of these communities in south Louisiana, were 
destroyed.
    As of this morning, more than 140,000 households have 
registered for assistance with FEMA. Our early--and it is still 
early--estimates show that a minimum of $8.7 billion in losses 
have been sustained in the State of Louisiana in housing and 
economic impact, and that does not include public 
infrastructure damage.
    To put a dollar amount on the devastation thus far, the 
Federal Government has distributed nearly a half billion 
dollars in housing assistance to the people in my State whose 
homes were several damaged. And the floodwaters did not 
discriminate. Neighborhoods of all shapes and sizes were left 
uninhabitable. The story is the same whether you live in the 
more populated Baton Rouge or rural Lake Arthur in southwest 
Louisiana, where their residents stepped up and built a flood 
wall all on their own.
    The miles upon miles of sheer destruction is hard to 
imagine and it is heartbreaking to see it as you travel the 
streets of south Louisiana. We call it debris when it's out on 
the side of the road, but that's people's lives. Those are the 
most precious possessions that they had.
    As the floodwaters rose I requested a Federal disaster 
declaration for the affected parishes. Within hours, that 
initial request was granted by President Obama as to four of 
those parishes, and within the next 48 hours, 20 Louisiana 
parishes received major Federal disaster declarations. At 
times, we were working both response and recovery 
simultaneously as waters receded in some places yet caused more 
flooding in others.
    Twenty-six parishes granted in this declaration joined an 
additional 36 parishes declared a major disaster for flooding 
that happened this past March. Right now, 56 of Louisiana's 64 
parishes have received a Federal disaster declaration for 
flooding based on both the March and the August events.
    Recovery from a disaster of this magnitude takes time and 
certainly an abundance of resources, and I'm grateful for the 
help that we've already received from FEMA and our Federal 
partners and the outpouring of generosity from people across 
the country. The efforts of local governments, and these three 
mayors here certainly have performed extremely well, but also 
the faith-based community has been outstanding. And the people 
who have come from all over the country to volunteer to help 
have truly made a difference.
    And I want to thank the Federal Government for a quick 
response. We received word from the President yesterday that 
the Federal portion of the cost share related to public 
assistance will be adjusted to 90 percent of the cost instead 
of the customary 75 percent. We certainly appreciate that.
    And from the moment we began monitoring the storm the 
Federal Government has been alongside us as partners. FEMA 
representatives were actually at the Governor's Office of 
Homeland Security and Emergency Protection as the rain started 
falling and with our emergency preparedness team to streamline 
our disaster response coordination with the Federal Government.
    I've had the opportunity to meet with Administrator Fugate 
in Louisiana on three separate occasions since this storm 
happened. I also have had an opportunity to meet with Tony 
Robinson, who is sitting to my left and you're going to hear 
from him in a minute, and together he and I and a team of folks 
traveled to just about every parish affected by the flooding 
both while we were in the response and as we transitioned into 
the recovery.
    So I'm thankful for the quick response that we've received, 
but I am under no illusion that the response has been perfect. 
And I, like you, urge FEMA to ramp up the delivery and 
installation of manufactured housing units in Louisiana.
    While the response in terms of receiving manufactured 
housing units after this storm has been the quickest in terms 
of any other Louisiana flooding disaster, it certainly has not 
been fast enough for our families who've lost their homes and 
have no place to go. Nearly 1 month after this flooding began, 
662 families have been approved for manufactured housing. 
However, only 48 manufactured housing unit are currently in the 
process of being installed.
    So I'm asking FEMA to explore ways in which it can expedite 
this process to ensure that those who have been impacted by the 
flood can transition more quickly into a stable living 
environment.
    I recognize that this is not the FEMA of 11 years ago, but 
we can always learn how to best serve those in need. We can 
always improve our response to disasters and we can always 
strive to make times of disaster easier on the people who are 
impacted.
    Floodwaters in Louisiana touched places that have never 
flooded before and are not in flood zones. This has put many of 
our local communities and homeowners who were in compliance 
before the flood in the untenable position of not being able to 
rebuild their own houses even though the flood maps will not 
even be changed as a result of this event. Eighty percent of 
the homeowners whose homes were damaged did not have flood 
insurance.
    Louisiana has learned from the aftermath of other weather 
events, like Superstorm Sandy, how to effectively mobilize from 
response to recovery as we work to address the housing needs of 
individuals and families displaced by flood. Our State has 
implemented an innovative housing program called Shelter at 
Home, and this program enables eligible individuals or families 
whose homes were damaged to take shelter in their own homes 
while they were built if those homes can be made safe, 
habitable, and secure with $15,000 of work.
    And the people want to go home. The focus of this program 
is simple. We want them to be able to go home and back to their 
communities, their schools, their churches, and their places of 
employment. And while it doesn't make a family whole and it 
doesn't fully repair a home, it does help the families get a 
jump-start on their full recovery. And we're operating this 
program in partnership with the Federal Government and we've 
had more than 17,500 homeowners register for the program in the 
2 weeks since we launched it, indicating a real desire to 
return home and to a sense of normalcy.
    It is within this framework that we traveled to the 
Nation's Capital yesterday to seek much-needed assistance for 
our State's recovery efforts. And I'm calling on Congress, 
respectfully requesting Congress to support a supplemental 
appropriation of $2 billion for Community Development Block 
Grant funds to allow for public investments in housing, 
economic development, and resilience infrastructure.
    Louisiana's housing need is projected to exceed $1.2 
billion alone, with an outlook of $3 billion in economic loss, 
including $110 million in losses to the farming community, and 
the preliminary estimates of $8.7 billion in damages that do 
not include public infrastructure losses. The $2 billion 
request for CDGB funds is a necessary step to rebuilding 
Louisiana, and simply put, we cannot recover without it.
    I'm also asking Congress to clear the $724 million backlog 
of Federal Highway Administration emergency relief funding to 
ensure that our State can effectively manage the rebuilding of 
infrastructure crippled by the flood. Rising floodwaters forced 
the closure of over 200 highways statewide, including every 
single interstate in our State except for one. There were 
approximately 30 State roads that were washed out as a result 
of the flood. And by clearing the emergency relief funding 
backlog, Louisiana would be able to receive $14 million from 
the March flood and $25 million from the August flood to help 
address our most critical infrastructure needs.
    And although this was a 1,000-year flood event, it is 
imperative that we protect our State and citizens from more 
extreme weather events in the future, and to that end I join 
with Congressman Graves in requesting $125 million in funding 
for the Corps of Engineers to fully fund the Comite River 
Diversion Project, which has been on the books and underway for 
20 years. The completion of this project, coupled with the 
completion of the Amite River Basin study, will allow our State 
to rebuild communities in a safer and more resilient manner.
    I also believe that it is critically important to address 
the social service needs of Louisiana families, particularly 
children who have suffered through the trauma of this disaster. 
The ability of our State to provide quality mental health and 
support services to disaster-affected populations is crucial. 
And to that end, I'm requesting a supplemental appropriation of 
$92 million in Social Services Block Grant funding to provide 
support services to the vulnerable individuals and families 
affected by this disaster.
    Louisiana will move forward. The resilient spirit of our 
people will never cease to amaze me. But we still need help to 
truly and fully recover. We have a long road ahead of us to 
meet the needs of our citizens, our communities, our economy, 
and our infrastructure, and I look forward to working with 
Congress, with the support of Louisiana's congressional 
delegation, as well as with this administration and the next, 
to ensure that our great State fully recovers from the historic 
and unprecedented flooding that has turned too many lives 
upside down.
    Thank you very much, Mr. Chairman.
    [Prepared statement of Governor Edwards follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
          
    Mr. Mica. Thank you, Governor.
    And we'll go now to Mr. Tony Robinson, the regional 
administrator for FEMA.
    Mr. Robinson you're recognized.

                   STATEMENT OF TONY ROBINSON

    Mr. Robinson. Good morning, Chairman Mica, Ranking Member 
Duckworth, and members of the subcommittee. My name is Tony 
Robinson, and I am the regional administrator for FEMA Region 
VI, which includes Louisiana, Arkansas, Texas, Oklahoma, New 
Mexico, and the 68 federally recognized tribes within that 
geographic area. I welcome this opportunity to discuss FEMA's 
role in the response and recover efforts to the flooding 
disaster that took place in and around the Baton Rouge, 
Louisiana, area between August 11 and August 31, 2016.
    I also welcome this opportunity to publicly commend the 
State and local elected officials sitting at the witness table 
today, as well as local first responders. These are dedicated 
public servants who are working tirelessly to serve the needs 
of their neighbors and communities, and I appreciate all that 
they have done and will continue to do.
    On August 14, Governor Edwards verbally requested and the 
President quickly granted a major disaster declaration under 
the authorities of the Stafford Act to provide assistance in 
three broad categories: public assistance, individual 
assistance, and the Hazard Mitigation Grant Program.
    Yesterday, the President approved the 90 percent cost share 
for all public assistance costs for this disaster. The 
President's announcement of the cost-share adjustment is 
another step in the administration's ongoing response to 
flooding in Louisiana.
    FEMA's public assistance and individual assistance programs 
are made available in areas designated as part of the major 
disaster declaration, while the Hazard Mitigation Grant Program 
is authorized across the State.
    During the response and recovery phase of the disaster, 
FEMA works to support the State as the State works to support 
its local governments. For example, if a community identifies a 
shortfall in its capability to support its residents in the 
wake of disaster, the community calls upon the State to 
identify resources to fill that capability gap. If, however, 
the State determined that it does not have the resources to 
fill the gap as identified by the officials, the State then 
turns to FEMA to draw upon Federal resources to fill that gap. 
Even so, FEMA's moving aggressively to make sure it is properly 
positioned to provide Federal assistance when the State 
requested.
    On August 12, in advance of Governor Edwards' request for 
Federal assistance, FEMA deployed incident management 
assistance teams to Louisiana to coordinate with State and 
local officials on lifesaving and life-sustaining operations. 
In support of survivors, FEMA delivered more than 2 million 
liters of water, 1.3 million meals, 17,700 cots, 12,500 
blankets, and 2,000 tarps to the State.
    At the request of State and local officials, FEMA also 
deployed a national urban search and rescue task force to 
supplement local search-and-rescue operations, and also issued 
a mission assignment for a national disaster medical assistant 
team to support the State's medical shelter operations.
    Along with the State, FEMA's prioritizing housing options 
for survivors as we continue to work with the State-lead 
housing task force to identify options that meet the unique 
needs of disaster survivors. There are several options 
available. As you know and as the Governor stated, on August 24 
the Governor announced the Shelter at Home program that with 
funding support from FEMA will allow residents who qualify to 
safely live in their own homes as temporary shelters while they 
plan and carry out permanent repairs.
    The Stafford Act prescribes that individual assistance 
program provide funding to assist survivors with repairs for 
homes, for rental assistance, or to assist with other needs 
like cleaning costs. As of September 7, FEMA has provided more 
than $584 million of assistance to individuals, of which $494 
million was provided in the form of housing assistance to more 
than 138,000 households. Furthermore, FEMA has activated its 
transitional sheltering assistance program on August 19 to 
allow eligible disaster survivors to be temporarily housed in 
participating hotels or motels.
    Flood insurance is one of the best ways to protect 
homeowners and renters from financial impacts of flood events. 
As of September 7, over 28,500 claims have been filed with the 
National Flood Insurance Program. In an effort to speed repairs 
and recovery the NFIP authorized and issued $247 million in 
advanced payments to NFIP policyholders in Louisiana who 
sustained damages, providing expedited relief to disaster 
survivors.
    When no other solution fits the circumstances FEMA may 
provide for HUD-approved manufactured housing units to provide 
a middle-term housing solution to survivors for up to 18 
months. As with many of the other efforts, we work closely with 
State and local official to ensure that the placement of these 
MHUs is consistent with flood plain management regulations, 
State and local zoning codes, standards, or ordinances, and is 
consistent with the needs of the local community.
    We continue to work closely with the State as they engage 
their local communities and identify projects eligible for the 
public assistance program. The State has scheduled applicant 
briefings and kickoff meetings with local officials. In each of 
these briefings and meetings FEMA will work side by side with 
the State and support them as they support their local 
communities in the recovery, planning, and execution.
    In conclusion, FEMA is working to support the State of 
Louisiana as the State supports its local communities and 
residents. While a lot of progress has been made, the recovery 
from this significant disaster will take time. As local 
communities identify capability gaps or shortfalls with the 
State and the State calls upon FEMA to assist with filling 
those gaps, FEMA will marshal all the resources of the Federal 
Government that the law allows to fill those needs. FEMA will 
be there to help survivors until our job is done.
    Again, thank for the opportunity to testify today. I look 
forward to any questions the subcommittee may have.
    Mr. Mica. Thank you. And we'll withhold questions until 
we've heard from all the witnesses.
    The Honorable Jr. Shelton, the mayor of Central, Louisiana, 
welcome, and you're recognized.

                    STATEMENT OF JR. SHELTON

    Mr. Shelton. Thank you very much, Mr. Chairman and 
committee members. We appreciate the opportunity to come here 
today to speak to you about what is happening in the local 
municipalities.
    Let me begin by saying that what I say here today has to do 
with the procedures, the rules, the regulations, not the people 
of FEMA. Mr. Robinson has worked very closely with us. In fact, 
I wish FEMA was rife with people like Tony Robinson, I wish he 
was cloned and we had a lot of him. But, unfortunately, it is 
not so, and because of that we have some problems, and I wish 
to outline those. I was going to read a speech, but I decided I 
just want to speak from the heart and let you know what exactly 
is happening in our city.
    Let me give you some statistics. The city of Central was 
incorporated 11 years ago. We are a young city. We have 27,900 
citizens. Of those 27,900 citizens, approximately 25,000 were 
impacted during this flood--25,000. We have 11,100 residences 
in the city. We estimate nearly 90 percent of those homes were 
damaged significantly. And when I'm talking about damaged 
significantly, I mean at least 2 feet of water or more.
    Congressman Richmond said it best when he said this is not 
about property, this is about lives. What you see in pictures 
that have been handed to you, the debris that's out there, 
that's not debris, that's people's lives. Can you imagine if 
you were 60, 70 years old and you lost everything that you had? 
How do you start over from there?
    Quite honestly, we have mental health problems taking place 
in these municipalities that are represented here today. We 
have suicides, we have mental breakdowns, we have families 
being torn apart, because honestly they don't know how they're 
going to get back on their feet.
    Let's talk about the response from FEMA. I understand the 
hierarchy that FEMA is to work with the State governmental 
agencies. And I want to compliment our Governor and our State 
for the work that they have done. I have no complaints 
whatsoever from there.
    However, it is important that this gets drilled down to the 
local municipalities because that's where the problems are. I 
should not have to go to the Governor's office with individual 
problems presented to me by my citizens. We should have 
contact, constant contact with FEMA.
    Twenty-one days following this event is when I got a 
liaison appointed to me. A nice lady, but she has absolutely no 
authority. Every question I've asked her, she has had to go up 
the chain. And I can only imagine how that chain is placed upon 
her to try to get answers. So I don't blame her, I blame the 
system, and that is what we are here today to talk about.
    Disaster recovery centers, there was an announcement there 
would be a disaster recovery center set up in East Baton Rouge 
Parish. One. I went ballistic on the radio, that a parish as 
large as East Baton Rouge Parish was going to have one disaster 
recovery center. Within the day I had a call from FEMA saying 
that we would have one, and I think it is only because I got 
out there and complained about it.
    Now, it was explained to me that there was going to be more 
disaster recovery centers set up, but the information being 
given to the public made it sound like only one was going to be 
there. That disaster recovery center is often the first contact 
anyone has with FEMA representatives and they are asked a 
series of questions. And I must tell you, after hearing the 
series of questions, I believe they are set up to exclude 
people instead of categorizing their needs.
    Let me give an example. If someone were to say to them in 
that interview, ``Do you have a place to live?'' and they say, 
``Well, yes, I'm staying with my in-laws,'' they are 
immediately put off on the side saying they don't have a 
housing need. We all know that's not acceptable.
    Instead, that question should be, ``How long will be able 
to stay there?''
    ``Well, maybe a week.''
    ``Okay, we'll get back with you in a week and see if you 
still have housing needs.''
    Instead it is put on that citizen in this time of turmoil 
and unrest to have to come back to ask for housing. That's 
unacceptable. These people need help. They don't need to be put 
off to the side and make them come back to ask the questions.
    We had a townhall meeting that was set up by FEMA. We were 
elated about that. We had 1,200 persons come to a church to 
hear questions being answered by FEMA. They weren't answered. 
Had it not been for representatives from the Governor's office 
there would have been very little substantive answers given 
there.
    The very first comment that the representative from FEMA 
said to this group of 1,200 citizens seeking help was: Hey, if 
we tell you no, come back and ask us again. That's telling 
those citizens we're trying to put you off, we're trying to 
wear you down, instead of, hey, we're going to try to help you, 
we're going to try to figure out your needs. They're trying to 
exclude, instead of include.
    The MHU or mobile housing unit issue, that should have 
never been an issue. I want to give you a statistic that not 
many people know. In East Baton Rouge Parish, or county, we had 
33,000 homes flood that are not in the flood zone. We had 
31,800 flood in the flood zone. You heard me right, we had more 
flooding outside the flood plain than we did inside. But the 
policy was an MHU does not go in a flood zone. But yet we're 
going to put them in the flood areas that out-flooded even the 
flood zones.
    So that policy should have been eradicated from the very 
beginning. AND this goes back to my point I have been saying 
time and time again, that instead of having this one template 
to take care of every disaster, you need to have templates for 
each type of disaster, a trigger that puts a certain team into 
place for certain events. And we're going to go back to the 
idea that this is not an event that's like an earthquake that 
might only happen in California or tornadoes in Oklahoma or 
Kansas. This is a rain event that can happen in your hometown. 
And we better get this right or it's going to be you sitting on 
this side of the table giving this testimony.
    There's one issue that has really disturbed me lately 
because it's something that we're faced with now, the major 
issue: Are these citizens going to have to rebuild and raise 
their slabs? That's the number one question right now. But yet 
in the local newspaper over the weekend there were two articles 
written in which FEMA was stating: Hey, we're not telling them 
to raise their slabs, it's the local municipalities and their 
ordinances that will do that. What they left out is those local 
ordinances in the municipalities have to agree and have to be 
meeting the rules and regulations from FEMA. So quit putting 
the blame on the local people. We want them back in the homes. 
We want them to have help.
    So in conclusion I just want to say that it's astounding to 
me that I'm sitting here today, that Congress and the President 
can send millions and billions of dollars overseas, but yet our 
own citizens have to beg and plead for help, those citizens who 
put that money in the coffers that can be sent overseas. All 
they went is help now.
    You were given some pictures from the city of Central, I 
ask that you look at them. There is a picture of a very typical 
street where you see the debris that might be 6, 7, 8 feet 
tall. That's their lives, as we talked about.
    In addition to that there are a couple of family pictures 
there, and I want you to look at those, I want you to look at 
the faces of those people. They're proud, but they're broken. 
They're hopeful, but they are shaken.
    The city of Central will take care of our citizens with or 
without Federal Government help, but I'm here today pleading 
with you, please, help these people with these lives, it's 
American families looking for help.
    Thank you.
    [Prepared statement of Mr. Shelton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Mica. Thank you. Thank you, Mayor. And I will recognize 
the Honorable Gerard Landry, mayor of Denham Springs, 
Louisiana. Welcome, sir, and you're recognized.


                   STATEMENT OF GERARD LANDRY

    Mr. Landry. Good morning, Chairman, and thank you for the 
invitation to share some information with you all today.
    It is true that 90 percent of my homes in my city received 
water. 90 percent. That's hard to comprehend that that many 
homes have water. Of the 4,200 homes, about approaching 3,000 
had over 18 inches, and that triggers the mitigation piece that 
we're so concerned about going forward.
    But this is such an unprecedented event when you have 25 to 
30 inches of rain in 72 hours. We talked about trillions of 
gallons of water coming down upon us. It is unbelievable what 
we have just gone through. And we talk about so many of these 
folks, 70, 80 percent of the folks did not have flood 
insurance. Well, the reason they didn't have flood insurance, 
we've never had that issue that bad.
    The crest of the river was 5 foot above the highest 
recorded flood stage that we've ever had back in 1983. How do 
we even prepare for that? So our folks in our--at least in my 
community, don't live there without flood insurance because 
they want to live dangerously or because they can't afford it. 
They didn't need it. So this is such a--a unique and rare event 
that has occurred. It has just devastated all of us.
    We can go into great detail about the response from FEMA. I 
have documented a lot of that in my brief that I have submitted 
to you, but the biggest single issue--well, there's actually 
two single--there's two big issues. One is the inconsistency of 
the information that is given to us and to our citizens, and 
the mitigation piece.
    We talk about mobile housing units and how we are--we need 
those desperately so that our seniors can get back to their 
homes and that our kids can get back to school because school 
starts again in a week or two. They need to be back in their 
communities. They need to be able to go back home and live in 
their driveway in a trailer, of all things, so that they can 
put their houses back together again.
    But it starts off with, Mr. Myers, you need a trailer, so 
we'll get you one. And then the next day or two, somebody comes 
by and says: Oh, no, Mr. Myers, you can't have it because 
you're in flood zone. Well, FEMA guidelines say you can't put 
one in a flood zone. Well, who needs one more than anybody else 
than somebody who just got flooded? So that just--there's no 
rhyme or reason there.
    And we were instructed last week, okay, FEMA has relaxed 
the guidelines. We can now have mobile homes in a flood zone. 
But you heard me talk about Mr. Myers, he's a 90-year-old war 
veteran. Guess what, FEMA went to his home just Tuesday and 
said: No, we changed our mind again. You can't have it. Where 
is the consistency and the message to our people?
    And you want to know why our people are frustrated? Because 
they don't know who to turn to. They cannot get consistent 
information that they need to make an intelligent decision. So 
to say that I'm disappointed and frustrated and angry is an 
understatement. My community, unlike Mr. Shelton's, is very 
old. We've been around since 1828 when Mr. Denham came and 
discovered some springs, hence the name Denham Springs. It was 
at that point in time when this community started to flourish, 
and we have large families, a lineage of generation after 
generation, such a strong sense of community, and that we all 
pull together and we all support each other. And so this--this 
disaster is about real people. It's not something you just see 
on TV and you don't connect with. But we are all--we are 
definitely all in this together.
    My community has an antique district, and the buildings go 
back to the early 1900s. We have football. Everybody has 
football. We also have football, but you know what it is, we 
sell season tickets and we sell out of season tickets every 
year to our high school football. That's the kind of community 
that we have.
    Our citizens love our city, and I love my citizens. And I 
try to be their voice. Another 90-year old, Mr. Hewitt 
Underwood. Mr. Hewitt served our country in the Second World 
War in the Coast Guard, has always been, to the veterans--has 
always attended every veterans' function. He's such a proud 
man. And now his home had 57 inches of water. He has a bride of 
59 years is how long they've been married, and they want to 
just go back home, but with the possibility of having to 
elevate their home at a cost of about $100,000, he can't afford 
that. The home is only worth about $100,000. He's 90 years old. 
He just wants to go back home and live the rest of his life in 
peace and enjoy his kids and his grandkids and his great 
grandkids.
    To show you how dedicated he was, some of the possessions 
that he had were--they were able to remove them from the home 
before the floods, and then after the floods, they went back to 
go and retrieve some of those. And when Mr. Underwood walked 
into his storage room, the first place he went to was the 
drawer where he kept his medals, all of his service medals from 
the military back in the Second World War. That's how--that's 
how much he served his country. That's how much he loves his 
country. But now the country is not serving him.
    With the ridiculous guidelines and the procedures that FEMA 
subjects him and his family and everybody else in my community 
and these other communities is uncalled for. It's unbelievable. 
You have to be on the ground to truly understand exactly what 
our folks are being--are going through.
    I would challenge anybody from the FEMA headquarters, play 
Undercover Boss, come to my city, go work the streets, and see 
what your folks are telling my people. I had a 70-year-old man, 
gentleman in my office just yesterday in tears. He was out of 
town during the flood event, came back home, drove into his 
driveway, saw the devastation, his wife had a heart attack.
    Now she is in Hammond, 30 miles away, in a hospital. Her 
sister is taking care of her while this poor guy is back at 
home trying to take care of his possessions, trying to gut out 
his house, and a FEMA rep goes to him and says: Well, I'm going 
to tell you what, you've got to tear your house down. It's 
devastating. He's devastated. It devastated him. He came to me. 
He said, Mayor, what am I supposed to do? And we sat down and 
we talked and we talked, and we're okay. But the response from 
FEMA has been totally uncalled for.
    So in closing, my biggest challenge to you is to make FEMA 
change the mitigation piece because if I had 3,000 homes that 
had more than 18 inches of water and they are deemed as 
substantially damaged, they want us to elevate them, that will 
be the death of my city. I received an email the other day of a 
guy that lives on Geraldine Drive, four of his neighbors have 
already said they are leaving, and he's strongly considering 
doing the same.
    That piece does not need to go into effect. Please suspend 
it. Please use some common sense. The fact is you are going to 
make somebody raze their house on a 1,000-year event, a rain of 
such epic proportions nobody could ever comprehend, you know, 
what was going to happen. So do not, please, I ask you, please, 
do not make us raze our homes. Thank you very much.
    [Prepared statement of Mr. Landry follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Mica. Thank you, Mayor. And we'll now hear--thank you 
for waiting patiently, too, Mayor Ramsey--Mayor Rick Ramsey of 
Walker, Louisiana. Welcome, and you're recognized.


                    STATEMENT OF RICK RAMSEY

    Mr. Ramsey. Thank you, sir. And again, thank you, Chairman 
Mica, for coming to Louisiana and viewing what devastation and 
what we've been going through for the past 3 weeks and for 
calling this hearing. I think that's extremely important.
    I want to reiterate what my two mayoral colleagues have 
said. I agree with every point that they've made on FEMA. My 
experience with the FEMA representatives on the ground is that 
they're actually caring people that feel the hurt and the needs 
of the citizens of our area. The problem is, their hands are 
tied. The bureaucratic maze that they have to weave their way 
through to get anything done is impossible.
    The other issue is that, from what I've seen, probably 50 
percent or more of them are either rookies that have no 
experience with the previous disaster or part-time employees 
that have no previous experience. We had a large group that 
were brought in from Puerto Rico that really has no idea what 
Louisiana is about and what we're going through in this area. 
They're good people. They're trying. Their hands are tied. They 
cannot do anything.
    There's--there's too many rules. There's too--too much of 
an effort to make this a cookie-cutter approach. I've heard 100 
times, look how much we've improved since Katrina, and I said: 
In all due respect, I see no improvement since Katrina. This is 
not Katrina. This is a blue collar community where the people 
work. They go outside. They want to come back. They to fix 
their homes, and they want to get back to work, and that's what 
these two mayors are telling you, and it's the same thing in 
the city of Walker.
    I think we're getting no national attention because there's 
a national misconception about Louisiana. We're not below sea 
level. We don't all border on the ocean. We aren't all on a 
river that floods. My city is east of Denham Springs. It's 6 
miles from the Amite River, it's 100 miles from the coast. It's 
32 to 40 feet above sea level. I can give you statistics from 
Wikipedia, and I know that's not a scientific basis, but San 
Francisco at 11 feet; Boston at 20; New York City at 13; 
Portland at 27; Philadelphia at 21; and they list Washington, 
D.C. as 16 feet above sea level. My city flooded at 32 to 40 
feet above sea level.
    The problem is our flooding was different this time. Yes, 
we had a catastrophic rain event. We were prepared for a heavy 
rain event. We have a really good meteorologist in Baton Rouge, 
and he called us and told us: Be prepared for a 1983 flood 
event. We were. Our canals were cleaned, our culverts were 
emptied, everything was ready. We expected double digit rains. 
It's not unexpected for our area. We get a lot of double-digit 
rains in Louisiana. We've endured Juan, we've endured Allison, 
we've endured Rita, Katrina, an unnamed storm of 2013. 17 
inches of rain is nothing unusual. We got 27. Yes, that's 
unusual, but that was over a 7-day period.
    Our drainage was holding. Lake Pontchartrain, Lake Manchac 
were at low levels because there was a westerly wind. Our 
drainage was holding. On Saturday afternoon, when the rain 
stopped, I believe that was the 13th, water fell 3 to 4 inches 
in water--in Walker, 3 to 4 inches. People quit worrying. They 
went into their homes, they drank a beer, they watched TV, they 
were celebrating, and at 10, 11 o'clock at night, water came up 
to their beds.
    We had a wall of water come down Interstate 12, 5 to 6 feet 
in depth. This interstate was just completed less than 2 years 
ago. It's the city's contention that we raise the flood 
elevation in our city by 5 to 6 feet. Areas that would not have 
flooded, flooded. Yes, it's 1,000-year flood. We would have had 
minor to moderate flooding in Walker. Instead, we had 
catastrophic flooding in Walker. We had homes that were built 
above the base flood elevation that took 3 feet of water.
    My personal home had over 5 feet of water, built in '73 and 
never flooded, through every rain event since 1973--excuse me, 
79, never flooded.
    This is unacceptable. We have a situation in southern 
Louisiana where a barricade is being built across our 
interstate system. Good intentions. Absolutely good intentions. 
It was to save lives, because we had lots of collisions on the 
interstate. We lost 13 lives in flooding, but you're not 
hearing about in the city of Walker where a 67-year-old man put 
a rifle to his temple in the Best Western Plus and killed 
himself 2 days after the flooding, or the mother who took a 
knife and cut the throat of an 8-year-old daughter and then 
killed herself after the flooding.
    Did the flooding cause that directly? No, I can't say that. 
Was it a contributing factor? I think there's no doubt, and I 
think everybody agrees with that.
    I've submitted pictures to your group. I've submitted thumb 
drives to your group. I would love for you all to review them, 
the videos that show this.
    You know, we--we are--we're not a group that likes to go 
out and ask for help. The hardest thing I've had to do is to 
ask people to help me in my home. Louisiana people, country 
people, they take care of themselves. This has been 
devastating.
    I'm looking for it to be even worse. And the biggest 
problem I have right now, and I'm going to--I don't know if I'm 
stepping on you all's toes or expanding on it, but as I 
understand the Biggert-Waters Flood Act, once you claim a flood 
event, then your flooding insurance goes to 100 percent. If it 
goes to 100 percent and you have flooded, you're going to be 
paying, from what I've seen locally from people that sold their 
houses, anywhere between $800 to $2,000 a month for flood 
insurance per month, depending on your home. What that is going 
to do is bankrupt that area, banks, mortgage companies, because 
people will walk away from their homes. They cannot afford a 
mortgage and flood insurance at that rate.
    We have got to reform that. We've got to give assurances to 
the people that they're not going to have to elevate their 
homes. We've got to give assurances to the people that their 
flood insurance is not going to become so on onerous on them 
that they cannot afford to pay a mortgage.
    If it's truly 1,000-year flood as we've heard, exempt them 
from the Biggert-Waters Act. Do not penalize them for being 
flooded at a time when this shouldn't have happened.
    I--you know, I could go on, as everybody here could. I see 
I'm over--beyond my time. There's every personal story that you 
could want. You talk to us afterwards, we'll be happy to tell 
you about. And I'm sorry I got off on a tangent on the issue of 
the interstate, but there is no doubt in our minds--I had a 
very renown meteorologist tells me that anybody that looks at 
those pictures and says that that did not impact flooding is 
insane. Thank you.
    Mr. Mica. Again, I thank each of you for being with us. 
It's--again, I came back just in shock, and this is about 
people and families and their lives just disrupted beyond 
anything we can imagine. The human toll is one of the greatest 
I've seen in anything, and I--again, having been on the panel 
longer than anyone and around the country and floods in the 
Dakotas in Iowa, Missouri, up and down the Mississippi and 
Louisiana and many incidents in Florida, never seen anything 
quite like this. And we do need the flexibility with the 
Federal program to be able to address this type of disaster and 
others yet to come.
    We've got to learn from--we learn some from the mistakes of 
Katrina, but it doesn't appear that we've come that far, and I 
have some questions, and I'll lead off with those at this 
point.
    First, Mr. Robinson, representing FEMA, we had, last week, 
143,000 claims. Is that correct? Is that up or down or----
    Mr. Robinson. As of this--as of yesterday, 140,000 claims.
    Mr. Mica. 140,000. And how many of--how many of those have 
received any funds? At one time they told me about 40,000 when 
I was there last week.
    Mr. Robinson. I'd have to get back for the record.
    Mr. Mica. I think that's very important.
    Mr. Robinson. We're $590 million in----
    Mr. Mica. Pardon?
    Mr. Robinson. --assistance. I have the dollars that have 
been provided. I do not have the number that received----
    Mr. Mica. They told me about 40,000, which is about a third 
of them had received something. And then I need to know the 
average amount of money, which you could divide by the amount 
of money given.
    Can't some of the staff behind him give him that 
information? I think that's very important to come to the 
committee.
    Mr. Robinson. As of this morning, the average was about 
$8,000.
    Mr. Mica. But I'd like to know how many and----
    Mr. Robinson. We'll get it for the record.
    Mr. Mica. If you can reverse that and give us the math on 
that.
    Most disturbing to me is--and again, we went through this 
fiasco with the trailers that had formaldehyde, but we knew we 
had to have shelter for people. We still have a quarter of a 
million people displaced. And again, the wrong questions are 
asked. They're living with family. Some of them are driving all 
the way from the New Orleans area for shelter. It's a situation 
that is not acceptable.
    And when I asked to see what shelter FEMA had provided, 
this is more than 2 weeks out, again, we had the one--you guys 
put up the one unit. Now, I was told there were 17 up, and the 
press accounts told me last weekend there were only five of 
these units actually up and the others were on their way. Do 
you know how many modular units are up?
    Mr. Robinson. As of last night, we had 110 on site. On 
site.
    Mr. Mica. Now, that's not the question I asked. How many 
are actually there and occupied, functioning for people?
    Mr. Robinson. I'd have to get back with you on that number.
    Mr. Mica. That's not acceptable either. This is the one 
unit 2 weeks later. And again, we--the most essential thing is 
housing, and we had one unit, and that was sold $60,000 for 
this one unit or more, that's a bigger unit, and that was the 
only one actually deployed and livable, somebody in it.
    We had 73 on the lot that I visited. They are lined up 
there. They told me they had 250 approved for placement, but 
they were not deployed. I asked the question: Was there a 
contract in place to deploy and erect these? They said, yes. So 
something's dramatically wrong. We're almost--we'll be a month 
out on Sunday, and we have these units sitting there, only a 
handful deployed, and a quarter of a million people displaced.
    The other thing is these units are useless for 95 percent 
of the locations. They don't fit in people's driveways. The 
only place they could be deployed is to--the only place they 
could be deployed is to a rural area, and we have those 
incidents. We have 1,000, I'm told, on the way. But the--what 
are these people going to do in the meantime? This is not an 
acceptable solution. I talked to Administrator Fugate. It's not 
acceptable.
    I know they can rent campers or portable units. Has any 
attempt been made to get that kind of equipment so that they 
could put them on site, stay there, and repair their homes?
    Mr. Robinson. Chairman Mica, there are several things we're 
trying to do. First and foremost, as the Governor mentioned, 
mentioned working with his program to do sheltering.
    Mr. Mica. Shelter-in-place, and I have questions about 
that. My question is do we have other types of housing that can 
be located at the site where they can--to do the shelter-in-
place, they've got to have a place to stay and live even while 
they're doing the repairs.
    Mr. Robinson. Under the rental assistance program, an 
individual can rent.
    Mr. Mica. Rent is available, but again, has there been an 
effort made to get some types of units made available, either a 
call to the industry to help or anything? I asked Fugate about 
this, because, again, they can get these houses back, according 
to the program, to shelter-in-place, but they've got to have a 
temporary place to stay.
    Mr. Robinson. Under the rental assistance program, a 
survivor can rent----
    Mr. Mica. I know.
    Mr. Robinson. --a travel trailer.
    Mr. Mica. But that's not my question. Do you--has there 
been an outreach? Is there a program? Is there something online 
that tells them that this is an eligibility?
    Mr. Robinson. Our programs, since this, is for up to 18 
months. We look at HUD-approved units.
    Mr. Mica. Yeah, yeah.
    Mr. Robinson. So they have a safe and secure unit.
    Mr. Mica. That doesn't--again, that doesn't answer my 
question.
    The other thing, too, I heard, Governor, when I was there 
is it took a long time to get the shelter-in-place. I think it 
was--the incident was the 11th. The 24th is--was that the date 
that you finalized the shelter-in-place program? I think you 
testified to that.
    Governor Edwards. I don't know if I said--I'm sorry.
    Mr. Mica. Again, I'm told it was the 24th. It was just 
before I got there because, they're telling--I'm saying why 
hasn't anything been done? They said that, well, the State has 
not approved a plan. And I guess I get there on Sunday. On 
Thursday you had approved the plan, a shelter-in-place. I see--
--
    Governor Edwards. Yes. And--but I would--I would not 
characterize that nothing had been done before that. There 
were----
    Mr. Mica. Well, again, when I go to FEMA, they say: Well, 
we have to wait on the State to have their plan. That plan was 
not--there was some delay, according to--usually when you are 
have a disaster, within a week you get the assessment and a 
plan. This is a couple of weeks in drafting. So I'm just 
telling you what I heard about excuses for them not deploying 
this faster.
    Governor Edwards. Well, as you know, the shelter-at-home 
program is a State plan, but it is underwritten, for the most 
part----
    Mr. Mica. Right, by the Federal Government.
    Governor Edwards. So we----
    Mr. Mica. But they have to have your plan before they're--
I'm telling you the excuses they give me. My job isn't to 
hammer you. It's to hammer the Feds. But I go to the Feds and 
they tell me the State hadn't responded in a timely fashion. 
I'm just telling you what they told me.
    Governor Edwards. And I'd like to comment on that, Mr. 
Chairman.
    Mr. Mica. Yeah.
    Governor Edwards. We developed that program jointly, and in 
fact, it was with Administrator Fugate's first visit that we 
first discussed doing something like shelter-at-home.
    Mr. Mica. But again, it didn't--it didn't trigger the 
Federal action for almost 2 weeks is what they're telling me. 
So we need to look at some way to narrow that timeframe in the 
future.
    Then one of the other things is, I heard Mayor Shelton and 
Landry, they both told me: Mr. Robinson, 21 days to have a 
contact with the officials whose communities are practically 
wiped out? And then when you get someone there, a contact, they 
have a contact that can't make a decision. It's got to be 
essential that we get with the community leaders in these 
programs in a disaster and identify a contact immediately. That 
did not happen, did it?
    Mr. Robinson. Sir, we put people in the office of--the 
Parish Office of Emergency Preparedness office.
    Mr. Mica. Again, Mayor Landry, didn't you tell me--how long 
was it before you got a contact? You held that slip of paper up 
in your office and showed me the name of the individual and 
you'd just gotten that.
    Mr. Landry. Yes, sir. It was in excess of 2 weeks, and it 
was a contact that was assigned--supposed to be assigned to me. 
One conversation on a Sunday afternoon, and I have yet to hear 
back from that person since.
    Mr. Mica. Yet to hear back from a--Mayor Shelton, how long 
did it take you?
    Mr. Shelton. 21 days. And let me state this: Being in 
contact with the parish officials does not drill it down into 
the local municipalities.
    Mr. Mica. Right. Again, and you described the destruction, 
your community.
    Then Mayor Landry and Mayor Shelton told me we had no 
disaster recovery center. You had no disaster recovery center 2 
weeks afterwards. Did you finally get one?
    Mr. Shelton. We did.
    Mr. Mica. You did. But he had none, and then I went back to 
the field where we had--we had these units, portable units 
sitting in the fields. There was--this picture doesn't show it, 
but there were multiple of these portable ones. And I went back 
and said: We need a portable unit in Denham Springs. That's not 
acceptable, and they're sitting in fields, not deployed.
    Mr. Landry. Sir, there was a--about 2-week discussion on 
whether or not we can have a DRC because we're in a flood zone.
    Mr. Mica. Yeah. Again, and we've got a portable unit that 
was not--portable units sitting, again, next to the trailers--
or the modular units. I saw them.
    Water. Okay. Housing and water. In Florida and other 
disaster areas, we're prestaging water, one of the essentials 
to get to people, house, shelter, and water. I was told it was 
4 or 5 days before FEMA water arrived. Is that right, Mayor 
Ramsey?
    Mr. Ramsey. Yes, sir.
    Mr. Mica. Is that right, Mayor Landry?
    Mr. Landry. Yes, sir.
    Mr. Mica. Is that right, Mayor Shelton?
    Mr. Shelton. I can't tell you the date.
    Mr. Mica. Okay.
    Mr. Shelton. I will tell you had it not been for 
Congressman Graves, we would not have had water.
    Mr. Mica. Yeah. People in Cajun Navy and the Cajun people 
were delivering and helping people get water, I was told, for 
days before FEMA's water, which is supposed to be prestaged, 
ever got there. And I said: Well, what was the problem? And 
they said: Communications.
    Mr. Robinson, why can't we get--why couldn't we get the 
water to them that FEMA has prestaged?
    Mr. Robinson. Sir, as I stated, we staged water and meals 
ready to eat in Camp Beauregard, which, in accordance with 
State plan we worked out, the National Guard then distributed 
that water down to the local level.
    Mr. Mica. What happened in not being able to get it to 
these communities? They told me it was a communications 
problem. Are you familiar with it?
    Mr. Robinson. I'm not, and I'll check that out.
    Mr. Mica. We need to find out what went wrong.
    Yes, Mr. Shelton.
    Mr. Shelton. I'd like to point out that at no time did 
anyone from FEMA contact me and say that water was even 
available. I had to go through Congressman Graves' office to 
get it.
    Mr. Mica. Again, these are--the basics, housing and water 
are not there. We've got shelter, which we're paying $60,000 a 
unit or more, and $20,000 to erect them, and they don't fit at 
95 percent of the sites, and we have a handful of them 
deployed.
    This is a pitiful Federal response by any measure. We've 
got the Federal regs, the little circle of going around about 
razing the houses now. Something's got to be resolved with 
that. I don't know if a waiver can be done. I've talked to the 
ranking member. We'll talk to Mr. Richmond and others, but 
people are left in limbo because they don't know if they can 
rebuild their homes. People are walking away from their homes.
    I met at dinner with a young man who--and his wife had just 
bought 2 years ago, that--young people mortgaged the house up 
to the hilt because they're trying to get their own home. He 
doesn't know whether to walk, to turn the keys over to the 
mortgage company. He was not in a floodplain, has no insurance. 
It is a pitiful situation, and they relied on Federal 
floodplain maps, and now the economic impact in this region is 
going to be devastating.
    Not only have they lost their homes. They're going to turn 
the keys in. The finance--financing of houses, probably the 
depreciation, 25, 30 percent of every home there because of 
what's--what's happened. So homes will be not only--have they 
been not only underwater, now they're going to be underwater 
and people walking away and their jobs.
    The recovery, like in Denham Springs, they'll lose--50 
percent of those businesses will never come back. It's almost 
impossible. They lost their stock, they lost their location, 
and then there are no customers because people don't have jobs.
    Well, you can tell this is frustrating. We do have Mr. 
Graves and I think Mr. Cedric--or Mr. Richmond, we have a codel 
going down to look at that. Governor Edwards, Administrator 
Fugate told me he could handle this within his existing budget. 
Now, I don't know about the CDBG grants, but he--that's what he 
had told me, so I don't know about whether we'll need that. 
There's lots of money available, I am told. We'll have to sort 
that out, I'm not certain. And the CDBG grants is probably the 
fastest way to get some action because it comes to the local 
communities and they can eliminate the red tape and go for it.
    Governor Edwards. And I would like to respond to that. The 
administrator told me the same thing. With the budget authority 
that he had, pursuant to the previous appropriation for the 
agency, he can absorb the costs that are FEMA's cost even at 
the 90 percent share, but CDBG, that is not contemplated as 
being----
    Mr. Mica. Right.
    Governor Edwards. --coming out of that.
    Mr. Mica. Right. And that's a different--there are 
different funds here.
    Governor Edwards. Yes.
    Mr. Mica. We've got some SBA issues. We've got--and I'm 
concerned about, too, I've gotten reports of possible fraud in 
some of the claims for food stamps and assistance, how that's 
being monitored. And cooperation, even between State agencies 
is not what it should be, but we rely on the State for 
accessibility to some of those public assistance programs. 
That's got to be addressed, and we'll have some more questions 
on that. Let me yield now to Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman. I'd like to start 
off by recognizing former Senator Mary Landrieu, who's joined 
us. Welcome, Senator. Thank you.
    I'd like to sort of look at some of the issues. It sounds 
to me like FEMA has policies, much of it specified by Congress 
as to what you can do, what you cannot do, and I'm just trying 
to figure out if there are specific challenges that are 
affecting this particular recovery operations and what we in 
Congress can do to help you be able to do that.
    And let me just--I'd like to start off with this, the food 
and water issue here. Mr. Robinson, you said that the 
prepositioning stockpiles for food and water are prepositioned 
in conjunction with the State, and then the Louisiana National 
Guard actually is who deploys--deploys them. So did that 
happen? Were those stockpiles there and were those stockpiles 
deployed?
    Mr. Robinson. Yes. We have meals and water in the State, 
and typically, the way that occurs is the Parish Office of 
Emergency Preparedness receives the request. They put it in an 
automated system called WEB EOC, which goes into the State 
Emergency Operation Center. If they have those resources 
locally, they source those, usually task the Guard to deliver 
those resources. If not, then they ask us to provide additional 
assistance.
    Ms. Duckworth. So Governor, did the National Guard deliver?
    Governor Edwards. Yes. And look, I am not going to quarrel 
with the mayors if they say they didn't receive waters as 
timely as they wanted to. I will tell you there was not a 
request that came from a Parish Office of Emergency 
Preparedness that was not timely responded to in full in terms 
of delivering water to the parish where we were asked to. And 
if there was a problem, it wasn't with the lack of water. It 
was with the lack of communication and coordination as to where 
that water needed to go. And that was one of the primary 
purposes of my visits to each of those parishes while we were 
still responding to get face to face, both with the parish 
president and the director of the Office of Emergency 
Preparedness in the parish to make sure that their request, 
coming to us through WEB EOC were being fulfilled, and never 
one time, in all honesty, did they tell me anything to the 
contrary.
    Now, I can't tell you that they got water. I can only tell 
you that we met every request that we got at the Governor's 
office of Homeland Security for waters and for meals.
    Ms. Duckworth. Mayor Shelton, did the parish leadership 
contact you and let you know that you could make the request 
for water and MREs?
    Mr. Shelton. Well, let me address that, because I've only 
been mayor 2 years. During this process, we have discovered 
that once the administration changed from the prior mayor to 
this mayor, I was to be contacted by someone from FEMA to kind 
of give me an update about what to expect in case of an 
emergency. That was never done. I had no contact with FEMA 
until 21 days into this thing.
    So what I'm saying is, I was not given the procedures prior 
to any event that would take place. So I had no idea that we 
could make those requests through the parish.
    I did call Congressman Graves. We did get water.
    Ms. Duckworth. I think Congressman Graves should be 
applauded for helping.
    Mr. Shelton. Absolutely.
    Ms. Duckworth. Absolutely.
    Mr. Shelton. I agree.
    Ms. Duckworth. But I'm still worried about the breakdown in 
communication because if FEMA didn't come to you, but then the 
parish leadership apparently didn't brief you either that you 
could put in the request, right, because it goes through the 
parish leadership?
    Mr. Shelton. I had been given a call by Joanne Morrow, who 
is fabulous in our mayor's office for the parish to say that 
anything that we needed, let me know, let her know. Well, 
that's fine, and that covers a broad variety of things. By that 
time, I had already contacted Congressman Graves, and it was on 
its way.
    Ms. Duckworth. Okay. Okay. Sounds like there are breakdowns 
both with the FEMA rep not briefing you, and then also, with 
the local State and parish leadership as well because you 
didn't get that information specifically that you could--that 
you could request it.
    I do also want to touch on one other thing before we return 
to this discussion. And as--Mayor Ramsey, just--I'm going to 
give you a chance in just a second, but I--I want to give you 
an opportunity to think about what you said, and I think it was 
because in the passion of the moment, in the frustration that 
you said that, you know, yes, you heard FEMA has improved since 
Katrina, but this isn't Katrina. These are blue collar working 
folks who just want to get to their jobs, not like in Katrina. 
I don't think you meant to say that the victims in Katrina were 
not hardworking blue collar families also.
    Mr. Ramsey. No, ma'am.
    Ms. Duckworth. Okay.
    Mr. Ramsey. I meant this is a suburban community versus a 
city community, which there is--it's a totally different 
individual that is traveling to their work. They don't walk to 
their work. They don't have issues. I would like to comment, 
though, if I may, on the last statement.
    Ms. Duckworth. Sure.
    Mr. Ramsey. One of the biggest problems that we had was 
there was no communication. AT&T failed completely through 
Livingston Parish. There was no cell phone communication. 
Verizon was sketchy. AT&T was out. Getting into our parish 
communications center was very difficult, to say the least. 
They were overwhelmed. I know that when I finally got the 
National Guard to deliver water and MREs to Walker, they 
delivered it to a staging area 4 miles from where the disaster 
actually was.
    And when people have no transportation, it makes it 
impossible for them to get to that area to get the supplies 
that they need. I even tried to deliver. But then going back 
into FEMA regulations, they would not allow me to load up a 
city car with cases of water and MREs to take to the area. They 
said they had to be broken into individual bottles, individual 
MRE packets, and counted for each one they put into my vehicle 
before I could take it out of their staging center and into the 
area where the people needed it.
    Ms. Duckworth. Mr. Robinson, are these FEMA policies, 
regulations, manuals, SOPs, same thing, do you need something 
from Congress to say that you can put an MHU in a flood area so 
that you can put these people into housing, or that your 
staging center can actually break down cases of water or don't 
have to?
    Mr. Robinson. So obviously on any disaster, there's lessons 
learned. I think one of the things, we worked very closely with 
the Governor's Office of Homeland Security and Emergency 
Preparedness. We also have people at each of the parishes, so 
what you've heard today is how we typically see that process 
where the parish then makes the request, the State sources 
that. Just like the points of distribution being discussed 
here. Those are typically run by the National Guard. We don't 
typically--we don't run those operations, so we certainly will 
circle back and make sure that we communicate what--that 
there's not regulations that we impose upon them.
    Ms. Duckworth. Okay. Governor, do you have, in your 
National Guard, mobile deployed communication units so that 
these teams that go out because we--they've been deployed all 
around, they're all around the Nation now. These are mobile 
teams that go out and actually provide the communication nodes 
throughout a disaster? Do you have one of those in Louisiana? 
You should have a--I don't know if you do or not, but I would--
go ahead.
    Governor Edwards. Well, I don't know that we deployed any 
communications teams. We have a Elwin system that had 135 
units. We never had less than 134 working throughout. And there 
were problems talking by cell phone, and I know that that's--
that's the--I see all the cell phones out on the table now, but 
the emergency folks, the first responders never had a 
communication problem.
    And--but I will tell you, when the AT&T cell service went 
down, it impacted everybody. And it made things much more 
difficult than it would have been otherwise, but the emergency 
communications network performed very, very well. In fact, we 
probably have the best in the country because of upgrades after 
Katrina that we continue to invest in and to update every year.
    So I will--I don't know that we ever deployed any National 
Guard communications units, but I don't know that it would have 
helped us in any way to do that.
    Ms. Duckworth. Well, there are these units that the 
National Guard has, and they have been deployed now for, I 
think, over 18 months Nationwide--actually a little longer than 
that, that actually come out, and they set up a satellite shop, 
and they provide the mobile services wireless, both for 
Internet and also for cell phone so that those in the local 
area--and if Louisiana does not have one of those, you might 
want to take a look----
    Governor Edwards. Yes, ma'am.
    Ms. Duckworth. --at requesting that. I just think that--
there seems to be breakdowns in procedures, and again, Mr. 
Robinson, you haven't really answered my question. Are there 
things that we in Congress can do to give you the authority, 
whether it is exceptions to policy, whether there is us asking 
the administration, the White House to give you exception so 
that you can do things, like placing an MHU in a flood zone so 
that those folks who are affected can actually have a place to 
stay while they're trying to fix up their houses? Or is that 
something that FEMA can actually review its own procedures and 
do yourselves?
    Mr. Robinson. So ma'am, to answer your question, obviously, 
the Post-Katrina Emergency Management Reform Act, the Sandy 
Recovery Improvement Act, were all things that this body did 
that helped us deliver our assistance and be more proactive. We 
are going to meet today, the mayors, myself, with the Associate 
Administrator For Flood Insurance and Mitigation, Roy Wright. 
We can place MHUs in a floodplain, not in a flood way, as long 
as we meet certain criteria, and we're going to talk through 
that today to make sure we're very clear on what we can do 
there.
    Ms. Duckworth. Okay. Are you going to have meetings with 
these mayors and the parish? It seems like there's a breakdown 
between the municipalities and the parish and the State and 
FEMA. FEMA and State seem to be working together very well, and 
you've got kudos from, I think, Mayor Shelton said that, you 
know, I wish there were more of you out there, but once you 
make that connection, it works.
    But he didn't know that he needed to send his water request 
up to his parish leadership, and that's a failure both with the 
FEMA representative, but it's also a failure of the parish 
leadership that didn't let him know either. So I sort of feel 
like there's somebody that needs to come in here and say, all 
right, we're all going to sit down at the table and we're going 
to figure out how we do this better. Is that happening?
    Mr. Robinson. Yes, ma'am. We have weekly calls that we're 
establishing with our mayors now. We've gone robust in our 
governmental affairs to be able to provide a point of contact 
where we can work through things, and we'll continue to have 
our liaison at the parish office making sure that they reach 
out and talk to the mayors on a frequent basis.
    Ms. Duckworth. Okay. Thank you. I've run overtime. I yield 
back. Thank you.
    Mr. Graves of Louisiana. [Presiding.] Thank you. I 
recognize myself. Mr. Robinson, let me ask you question. Every 
other person sitting at that table, and probably you as well, 
could introduce you to hundreds of people in their communities 
that will tell you a story that goes something like this:
    I have a home that is worth $200,000 before the flood. That 
flooding gutted it right now, and so that home flooding gutted, 
pick a number, it's worth $100,000. It's going to cost me 
$80,000 to get it back in shape again. I lost all my clothes. 
That's going to cost me $10,000. I lost both my cars. That's 
going to cost me $40,000. All right. Add these things up; you 
can throw in an elevated home, whatever you want to do. Without 
question, you're getting into six figures. The individual 
assistance cap on Stafford Act is $33,000. Is that correct?
    Mr. Robinson. That's correct.
    Mr. Graves of Louisiana. What do we tell those people? Is 
the Stafford Act sufficient to respond to this disaster?
    Mr. Robinson. So Congressman, I'd say that the assistance 
and disasters is multifaceted. So the Small Business 
Administration assistance, they may provide insurance, whether 
they be flood insurance, homeowner's insurance, all those 
things come together to make someone whole.
    Mr. Graves of Louisiana. Small business is a--small 
business is a loan. Is that correct?
    Mr. Robinson. That's correct
    Mr. Graves of Louisiana. Okay. So you're going to take on 
another liability. These people--you know, Congressman Richmond 
said it very well. They've lost it all. It's not a breach. 
There are lives are on the street. They lost everything, and 
yet they are going to take on another liability? Is this 
sufficient to respond to this disaster for this community to 
recover?
    Mr. Robinson. The continuum of assistance includes many 
things, and it could be faith-based volunteer organizations or 
we've--I implemented our National Disaster Recovery framework 
to look at philanthropic organizations and what they may be 
able to help us with as well.
    Mr. Graves of Louisiana. We're going to donate in charity 
and volunteer our way out of the fourth most costly disaster in 
the United States--flood disaster in United States history. 
That's what you're saying?
    Mr. Robinson. What I'm saying is, it's a large event, and 
it's going to take the whole community effort to be able to 
help these citizens recover.
    Mr. Graves of Louisiana. And I mentioned, and this is a 
statistic coming from you, from the FEMA NFIP program that 
believe--again, projecting this to perhaps be the fourth most 
costly flood disaster in United States history. The others 
would be Sandy, Katrina, and Ike. In those other there 
instances, were--was anything--were there supplemental 
appropriations requested?
    Mr. Robinson. I'd have to get back for you for the record.
    Mr. Graves of Louisiana. I can answer that. It's yes. It's 
hell yes. You don't have a disaster like this and not step in 
and tailor the response.
    There is this unbelievable perception out there that the 
cost of inaction is free. Mr. Robinson, I'm going to state 
again, look, I'm very frustrated right now and I'm--not at you. 
I'm frustrated that Administrator Fugate is not here or someone 
even higher to talk about the recovery here.
    I mean, this is absurd that we're trying to use something 
that was created for preschool to try and address a college 
situation. The sideboard has been blown off the Stafford Act 
for this disaster. They've been blown off. This is an entirely 
insufficient situation.
    What are you going the tell that person that is sitting 
there that doesn't have the money in the bank and is facing a 
six-figure liability to get themselves back to where they were 
the day before the storm? What are you going to tell them? They 
have got their lives and they've got God. What are you going to 
tell them?
    Mr. Robinson. Sir, we're going to work together with the 
State, the whole community to try and help them on the road to 
recovery.
    Mr. Graves of Louisiana. The Governor's--the Governor's 
testimony indicated that he believed that there was $8.7 
billion, is that ballpark, Gov?
    Governor Edwards. Correct, not including public 
infrastructure damage.
    Mr. Graves of Louisiana. Okay. So in excess of 8.7 billion. 
And so, we're going to depend upon volunteers and philanthropic 
organizations. The volunteers in Louisiana have been--and 
throughout the States have been unbelievable in what's happened 
so far. The value of their work--I know that folks in the State 
are looking at this, but tens, if not hundreds of millions of 
dollars, and if you value the work that's been done on the 
rescues and the recovery work so far, unbelievable what they've 
done.
    It is--it is absolutely unacceptable to think that we're 
going to find a way to charity ourselves out of this thing. 
It's not happening. I'll say it again. The cost of inaction is 
not free. We have two choices. We can get in front of this and 
design a recovery package that's tailored to this disaster, to 
help provide a hand up to a community that doesn't ever want a 
handout. Or, we can--we can sit here and let mass foreclosures, 
bankruptcies--and you heard them talk about it. Two of the 
mayors, I believe, mentioned 90 percent of their community is 
flooded.
    Mr. Robinson, let me ask you another question. FEMA, as I 
recall over in North Sherwood, where you have some MHUs set up 
over there, staged over there, I think there's an adjacent area 
that appears to have some other trailers and mobile homes. Can 
you tell me what that is?
    Mr. Robinson. Some of the RV units that you're talking 
about?
    Mr. Graves of Louisiana. Yes, sir.
    Mr. Robinson. Those could be mobile communication platforms 
and maybe mobile units that we use for disaster recovery 
centers that are mobile as well.
    Mr. Graves of Louisiana. Is there FEMA personnel that live 
or stay on that compound anywhere?
    Mr. Robinson. There's not.
    Mr. Graves of Louisiana. There are no FEMA--where are all 
the FEMA personnel staying?
    Mr. Robinson. They stay throughout the impacted areas.
    Mr. Graves of Louisiana. In a tent?
    Mr. Robinson. Most of them are in a hotel, and I think most 
of our staff right now are staying either in New Orleans or 
Lafayette.
    Mr. Graves of Louisiana. Okay. And where are there--where 
do their meals come from?
    Mr. Robinson. Excuse me, where do their meals come from?
    Mr. Graves of Louisiana. Their meals, where do their meals 
come from?
    Mr. Robinson. From the local community.
    Mr. Graves of Louisiana. And who pays for that?
    Mr. Robinson. They receive a per diem.
    Mr. Graves of Louisiana. Okay. So--so we have--we have 
hotels that are set up, and let's keep in mind, hotel rooms 
aren't available for the general public. I mean, pretty much 
all the hotels are booked. So we have FEMA personnel that are 
staying in hotels. They get a per diem for their meals that are 
covered, and all their stuff is set. Those guys are taking care 
of. That's not a worry that they have.
    Now, let me tell you about conversations with Livingston 
Parish Sheriff Jason Ard, east Baton Rouge Parish Sheriff Sid 
Gautreaux, and Ascension Parish Sheriff Jeff Wiley. Their 
deputies are peeling off left and right because they don't have 
stability. These are the law enforcement community that are 
foundational to the recovery of these communities, and their 
deputies are leaving because they don't have that stability 
that your employees have. They don't have that.
    And so we've asked if they could simply have a compound 
that they pay for that, by the way, will save significant 
dollars as compared to other FEMA solutions. If they can have a 
compound where they can set up trailers and other housing 
opportunities for their deputies--and FEMA has been all over 
the place. I think I've talked to everybody from Homeland 
Security Secretary to some random person from Puerto Rico about 
it, and nobody can seem to give an answer.
    The law enforcement community needs the same stability. 
Look, keep in mind, they've lost everything they flooded. 
Unlike your employees, they don't have that stability. They're 
peeling off and trying to find it because they can't stay in 
these communities. They need that stability. And to continue to 
drag these guys around, not give them answers, and not give 
them what they want when it's more cost effective and helps 
establish the rule of law, Mr. Robinson, I'll say it again, 
it's completely unacceptable.
    I know I'm going over time. Congressman Richmond, I want 
to--just one more question and then yield to you.
    I want to ask one other question. Based on some of the 
calculations we've seen on MHUs, these trailer units, you buy 
them, you transport them, you stage them, you set them up, you 
break them down. As I appreciate, the cost per unit, when you 
add up all those costs, you're approaching $100,000. $100,000. 
The Governor's program shelter-at-home, which Gov, I've--I've 
said before. I love the concept of that program. I think it's 
complementary to long-term recovery. The concept is great.
    Under the Governor's program, they're capped at $15,000 per 
house. So let's compare that. $15,000 per house to help 
shelter-at-home. You're going to have $100,000 in a unit, in a 
manufactured housing unit. That's a lot of ocean, $85,000 in 
cost per household between those two. Why would you not give 
the shelter-at-home program more flexibility to help get these 
homes in better shape toward the long-term recovery? Give them 
$50,000. You save $50,000. It's a cost-effective solution for 
taxpayers.
    Why wouldn't more flexibility not be provided there? Why 
would you not let some people go to Home Depot or Steins or 
Homes or Lowes and go, say, hey, look, these 50 products are 
approved products to rebuild your home, and let them do it. I 
remind you, we had the Cajun Army, Cajun Navy, Cajun chefs, 
Cajun shelters, these people all did this on their own. Why 
would you not provide more flexibility to them to--again, more 
dollars and more flexibility? It complements the long-term 
recovery.
    Mr. Robinson. So we agree with you. I think the stay-at-
home program is an innovative solution. What we've tried to do 
here is create that $15,000 in addition to somebody's repair 
money so the Governor's program can come in and make the home 
safe and secure, and then the repair money can be extended so 
they can make those--the permanent repairs to their home.
    Mr. Graves of Louisiana. I yield to Congressman Richmond.
    Mr. Richmond. Mr. Robinson, let me just--is there 
prohibition from FEMA that prevents money from being spent on 
permanent repairs and permanent housing?
    Mr. Robinson. So we have several authorities. One is for 
temporary sheltering, which some of our programs are being done 
now. The others are our temporary repair program, which it 
provides funding for a homeowner to make permanent repairs to 
their home.
    Mr. Richmond. Right. My understanding is we have to be very 
creative with the shelter-in-place program because that they 
are strict guidelines that you all can't spend resources 
towards a person's permanent housing needs. For example, why we 
use travel trailers in trailer communities, because you 
couldn't spend money on them having a permanent trailer for the 
rest of their life. So I'm asking, does it come from Congress? 
Does it come from you all, this rule that you can't spend money 
on permanent housing?
    Mr. Robinson. So under the authorities for the Governor's 
program, that is a sheltering program, so that is temporary in 
nature, must be sheltering in nature. And then there are 408 
programs that then allow housing for up to 18 months.
    Mr. Richmond. You are missing my question. Is there a 
prohibition that prevents money towards going to a permanent 
housing solution, not temporary, permanent? So, for example, if 
shelter-in-place also meant putting back some sheetrock and 
some flooring, would that be prohibited because it goes towards 
permanent housing?
    Mr. Robinson. That would be allowed under the repair money 
that we provide to the individuals.
    Mr. Richmond. Under their $33,000?
    Mr. Robinson. Correct.
    Mr. Richmond. Now let's get to that $33,000. Why is it, 
looking at all the damage that we have, why is the average 
coming out somewhere around $8,000? So tell me what's--what 
qualifies, because what the constituents are saying is that you 
all are coming in and saying we'll only pay for essential 
needs, which means we'll pay for the master bedroom. If you 
have a kid, we'll pay for the kid's bedroom, but we won't pay 
for the guest bedroom because it is not essential. We'll pay 
for one bathroom because it's essential. We won't pay for the 
second bathroom. So with all the needs that we know out there, 
how do we get to an average of $8,000 per structure? Or per 
person?
    Mr. Robinson. So under our programs, we're authorized to do 
emergency measures to make the home safe and secure and 
habitable. So it's minimal repairs.
    Mr. Richmond. No, I'm talking about the need, the FEMA 
assistance of the $33,000, what--what cost can be included in 
that? What can you cover in there?
    Mr. Robinson. Yes. So as I was saying, those are for the 
emergency repairs to make the home safe and secure and 
habitable.
    Mr. Richmond. That's it?
    Mr. Robinson. It's not for permanent--it's not for the 
replacing everything that's in the home.
    Mr. Richmond. Well, see, now we're having problems then. 
This is what I don't understand.
    So if the government has a shelter in place where they're 
going to make it safe and habitable and do all those things--so 
that person then does not qualify for any of the $33,000? What 
about clothing? What about all the other losses? I'm asking, 
what losses can be covered by the $33,000?
    Mr. Robinson. Sir, the personal property can be covered. 
One of the things we've done by allowing the Governor's program 
is to maximize those dollars under the 33 so they can make 
repairs to the sheetrock to make the home livable in a more 
permanent fashion.
    Mr. Richmond. So why is the average $8,000? Everyone lost 
clothing. Everyone lost bedroom sets and TVs and all of these 
other things. How can we realistically say we have an $8,000 
average if we're going in and truly evaluating their home?
    And, at some point, I would like FEMA to just adopt a 
commonsense test, that the thousand inspectors that we have on 
the ground that we're sending out to everybody's home--even 
State Farm at some point during Katrina said, ``You know what? 
We're just going to look at a picture, and if we see water to 
the roof line, we're just going to assume it's a total loss.''
    So why can't FEMA, instead of spending the housing, the 
money on a thousand inspectors, make some very commonsense 
conclusions that if you lost your house and the Governor's 
going to gut it, you're going to need bedroom sets, clothing, 
and all of those things? And that costs well over $8,000. We're 
going to spend $30,000 to give someone $8,000.
    I mean, the question becomes, how do we get a commonsense 
test so that you all would have the flexibility--now, if you 
tell me you have the flexibility and you all are just not doing 
it, then that is a big problem for me. So how do we get a 
commonsense test to quickly get money out to people?
    Because you're at $8,000. How do I get--let me just make my 
question very clear. How do I get people $33,000 very fast? 
Since that's what you have the authority from Congress to give 
people, how do I get the 33,000--how do you give it out faster?
    Mr. Robinson. So, sir, we are looking at those emergency 
repairs. Our inspectors look at the verified loss to do those 
emergency repairs. Our programs are meant to be supplemental in 
nature to homeowners and flood insurance.
    Mr. Richmond. Okay. So if I don't have flood insurance--
look, and I know there are some standard answers you have to 
give, but just work with me here.
    If I know there's a home and I know that they don't have 
flood insurance because they're not required to have it, then 
let's just agree that the wind and hail policy is not going to 
cover anything. Correct?
    Mr. Robinson. Yes, sir.
    Mr. Richmond. So if they don't have flood insurance and 
they've got 8 feet of water, can we just agree that they have 
at least have $33,000 of damage?
    Mr. Robinson. Each case is an individual case. And so what 
I would say is we'll get back to you and walk through that 
process on how we get to the inspections and the amount.
    Mr. Richmond. And that's, I think, the problem that most 
people are having. Because they lived through it. And I've 
lived through Katrina. I lived through Hurricane Isaac in St. 
John Parish. And now we're dealing with Baton Rouge and the 
surrounding areas, which is a very massive area.
    The question just becomes--we ought to be able to sit down 
in a room and figure out a way to expedite the funding and 
maximize--I mean, the frustration, I think, from people is that 
the Federal Government is trying to figure out a way to give as 
little as possible.
    And through Katrina--and, Mayor Ramsey, I will just have to 
differ with you. I think these are the exact same storms. I 
think it's the exact same damage. I think water in a house 8 
feet is water in a house 8 feet. People in New Orleans walk to 
work or drive to work. I think it's the same.
    My frustration is that we just won't--we're assuming that 
people are trying to scam the system. These are homeowners, 
hardworking people who have made the most responsible decision 
to purchase a home, and we're trying to figure out a way to 
give them the least amount as possible. They're not asking for 
an additional nugget at McDonald's. They're asking to be made 
whole because they find themselves in a predicament that was 
out of their control, that they had no fault in finding 
themselves in this predicament. And we as a government have an 
obligation to help.
    So part of it is, if you and I have to go on a case-by-case 
basis to figure out a neighborhood where every house got 
$8,000--I mean 8 feet of water, and we're trying to decide 
since they didn't have flood insurance whether they have 
$33,000 worth of damage--why can't we just sit down with a pen 
and pad and say, let's just take appliances at $4,000, let's 
take per bedroom another $2,000, let's take flooring, let's 
take air conditioning, let's take mold remediation, and at some 
point we get to a number that's probably excessive of $33,000 
and say at some point we ought to be able to look at the house, 
send the inspector out, and say, ding, no flood insurance, this 
one qualifies, and just move on to the next one. That's what's 
hampering recovery, and without knowing that people are in this 
limbo.
    Now, we have work to do in Congress. We have to get a 
supplemental done. Without a supplemental, the government will 
never have the ability to set up a program to match the unmet 
need that people are going to have. And that unmet need is 
calculated by what FEMA gives, what insurance gives, and what 
it actually costs to get back in your home.
    I lived it. I still do casework from Katrina. And what I'm 
telling you is we know that there's going to be an unmet need. 
So whether we give it through the $33,000 that we can give 
right now--we're going to have to give it through CDBG later to 
answer the same unmet need. Let's give the $33,000. It only 
reduces what we're going to give out when we get a 
supplemental.
    So we have to go work in a bipartisan fashion and get 
another $2-billion-plus for Louisiana. And the question is, we 
would like to partner with FEMA and figure out a way that we 
can work to get people the money they need. If State Farm that 
is driven on a profit basis could devise a plan where they look 
at aerial photos and determine payouts or whether you've hit a 
max policy and they're a profit organization? I think 
government, that our purpose is actually purpose. I think we 
should be able to do the same thing without people calling into 
question all of those things.
    And the last thing, Congressman Graves, and I'll close, 
what troubles me--and we even heard it today--what troubles me 
is the question about food stamps and fraud. If our first 
thought is always that America's citizens are looking for a way 
to beat the system, then we're never going to make any 
progress. And if we try to devise a program that is fraud-
proof, then you're going to see a program with so many hurdles 
that hardworking, honest people decide, ``It's not worth my 
time.''
    And Administrator Fugate should be here, but this also 
should be a full committee hearing and not a subcommittee, with 
every member here too.
    So, as we talk about responses, I just want us to be fair 
and try to work in a way to just get people what we can give 
them right now, and then we will take our task of working in a 
bipartisan fashion to get the State the money it needs to make 
people whole.
    Thank you.
    Mr. Graves of Louisiana. Thank you, Mr. Richmond.
    I'm actually going to have a round two.
    Governor, let me ask you a question. Give you a magic wand, 
and let's put funding on the side for just a minute, but give 
you a magic wand, if you could change three policy issues that 
you see as big impediments to the recovery, what are some of 
those things that you'd identify?
    Governor Edwards. First of all, I know three things I would 
change. I don't know if it's policy or whether--because I've 
had continuous communications between myself and FEMA, whether 
it's Administrator Fugate, whether it's Tony, whether it's 
Gerry Stolar. I don't know quite often, when there is an issue, 
whether it's because of a limitation imposed upon the agency by 
law, which they have no discretion to waive, or whether it's a 
FEMA policy that they could waive. And so I----
    Mr. Graves of Louisiana. Okay. Well, so let's include laws 
then, policies and laws. So what are some of things that you 
see as being----
    Governor Edwards. Well, you know, as I mentioned earlier, I 
think the manufactured housing unit program has been too slow. 
It hasn't been responsive. As to where those units can be 
placed, I still don't know whether that's a function of law or 
whether they have the discretion to place those in more 
locations.
    You know, I would tell you that I believe the Shelter at 
Home Program, which--and I understand the chairman was talking 
about how long it took to stand it up. I will tell you it's the 
fastest it's ever been done, and by a long shot. And so you've 
got an obligation to get it done as timely as you can but also 
to try to make it as responsive as you can make it.
    But we had serious discussions about what ``habitable'' 
means. And, for example, at the end of the day, because of a 
concern about duplication of benefits, which I think is 
probably statutorily driven, I wasn't able to give a full stove 
and oven and a refrigerator so we settled on a mini 
refrigerator and a microwave. But that will be habitable. It 
won't be what I wanted for these individuals, but it will be 
habitable.
    But we were able to get there because we were talking, we 
were meeting. And so I appreciate the effort that they made; I 
just--I thought the result could've been a little bit better.
    And, thirdly, you know, I will tell you what I'm going to 
have to work on, because, quite frankly--and I'm not here to 
defend FEMA. I'm not here for any other purpose. But some of 
the concerns that have been directed to FEMA by the mayors at 
the table, if there were problems, quite honestly, should have 
been directed at me and your parish OEP directors.
    Because I cannot imagine a system where FEMA delivers water 
to a mayor. I don't think that can work that way. They brought 
the water and the food to the State when we asked for it, in 
the quantities we asked for it. And then it's my job, using the 
National Guard and the WebEOC request format, to make that 
happen. And if it didn't happen, that really is on me.
    But I would suspect it's a coordination and a communication 
problem. Because, again, there was not a single request that 
came to us from the parish OEPs that we did not fulfill in a 
timely way. But we have, obviously, some work to do to make 
sure that we know how to go about getting those resources.
    Mr. Graves of Louisiana. Governor, thank you.
    I do want to make one personal note in regard to the 
framework. On Saturday night--just one quick personal story. 
Saturday night, I was out helping rescue folks and had been out 
there for probably about 16 hours straight doing rescues. And 
we had a guy that I'm fairly certain wasn't old enough to have 
a driver's license that was driving a school bus that I'm 
pretty sure he didn't have the keys to. And I'll tell you, I 
told that guy ``thank you'' a thousand times, because he was 
shuttling some of the people we were evacuating after we 
brought them out in the boat over--somewhere.
    But he disappeared. I don't know where he came from. He 
disappeared. He stopped running the shuttle. And so we got to 
the point to where we had, I'm going to guess, 30 people up on 
the road, up on Greenwood Street. The road was flooded to the 
east; it started flooding to our west. We didn't have anything, 
so I'm calling folks. I'm like, look, I need a bus. Like, I 
just--I don't know if I need a kid to hotwire another bus or we 
need something legitimate, but we need something to get these 
people out of here because the water is starting to flood on 
the other side of us as well.
    And I'm told, oh, well, you need to go on the WebEOC 
system. I got to tell you, I was about to take this thing and 
chuck it about as far as I could. And I'll tell you right now, 
these guys are in the same boat. You know, they don't want to 
hear about WebEOC.
    And so I do think that--and, look, I was in UCG and I've 
been in that situation before where I wanted to, you know, take 
EOC and shove it somewhere. But I do think that we need to talk 
about a more adaptable framework for people that are on the 
ground in waist-deep water and that have needs, in some cases. 
So I just want to make that note.
    Governor Edwards. And, Congressman, can I make one more 
comment?
    Mr. Graves of Louisiana. Please. Please.
    Governor Edwards. And it'll be brief.
    You're exactly right. The Stafford Act is insufficient. The 
amount of assistance that we're able to obtain----
    Mr. Graves of Louisiana. See that, Tony? He can say it.
    Governor Edwards. Well, no, it is, but that's why I'm in 
Washington this week. I'm asking for additional help. We need 
to do the Comite River diversion program. We need to erase the 
backlog of $724 million in emergency dollars through the 
Department of Transportation. We need the Social Services Block 
Grant for the mental illness problems that we're talking about 
so we can get those addressed.
    And, most essentially, we need that $2 billion Community 
Development Block Grant program so that we can try to go in and 
convince these people that the right thing to do is to stay in 
their communities, to stay in their homes, not simply walk 
away, leaving their employers without employees, leaving their 
businesses without customers, leaving their schools without 
students, leaving their churches with empty pews.
    We have to do that. And the quicker we can give them the 
peace of mind that help is on the way, even if the help itself 
doesn't arrive for several months, the sooner we can give them 
peace of mind that help is on the way, they will start making 
the decisions that they really want to make and that we want 
them to make.
    So that's why I'm here asking for all the assistance. And I 
appreciate your help and the help of Congressman Richmond----
    Mr. Graves of Louisiana. Thank you.
    Governor Edwards. --and Congressman Scalise.
    Mr. Graves of Louisiana. Ah, he hasn't done anything.
    Mayor Shelton, let me ask you a question. We've talked 
about ad valorem tax districts. And you have fire departments, 
you have sheriffs offices, you have levy districts, drainage 
districts that all have their entire revenue stream based upon 
an ad valorem tax.
    Can you just briefly describe the situation that this flood 
has caused for their revenue stream and the predicament that 
many of these entities are going to be in?
    Mr. Shelton. Well, I think it's pretty obvious that the 
assessors throughout the affected area are going to have to go 
back in and reassess the properties. And we've heard numbers 
anywhere from 75 percent to 50 percent reductions. That's going 
to be devastating to these agencies--school boards, fire, 
police, any agency that depends upon ad valorem taxes.
    As a city, we're fortunate that we do not rely upon ad 
valorem taxes, but I know that other cities do. And when you 
start taking that type of money out of those systems, we have 
problems for years, because it's going to take a while for 
those values to rise back up to an acceptable level, before the 
storm. So it's not an issue that's just a one-time assessment. 
It's going to last for years.
    Mr. Graves of Louisiana. So--and, Mr. Robinson, I want to 
make note of this--compounding the problems that these folks 
are already facing--lost their homes; the families don't have 
anywhere to go; in many cases, the schools are closed and 
flooded; and, on top of it, losing their entire revenue stream, 
or a major chunk of it, because of the reduction in value of 
homes.
    Mayor Landry, let me ask you, going back to what I 
mentioned before in the question to the Governor, with a magic 
wand. You and I have talked about a lot of problems, and I'm 
actually going to spoon-feed you one issue.
    These manufactured housing units are larger units. They're 
not the Katrina trailers, the smaller units that can fit--you 
represent a city. And these units, I'll tell you what, it 
wouldn't fit in my yard. It wouldn't. We don't have a big 
enough piece of property. Nowhere to put it.
    If you had that magic wand, what are a few things you would 
do? And I would like you to specifically address that MHU issue 
and the compatibility with your city.
    Mr. Landry. Well, as I understand, the MHUs are 8 feet wide 
and 42 feet long, which is probably one of the smaller units. 
You're right; most folks, especially in the older parts of 
town, where some of the significant flooding was, probably only 
have a 50-foot-wide lot. So they just don't fit. And you really 
don't want it, you know, long-ways across the front of the 
home. But wherever we need to do we can do.
    A travel trailer is probably one of the better solutions. 
And I was told by one of our FEMA partners that there are 
several hundred of those travel trailers out. They could be 
hauled up here without a permit, without any kind of escort 
service down the interstates. And they can literally can back 
them into someone's driveway, have them hooked up and running 
in just a matter of hours.
    But that was a week ago. That was a week ago. And I called 
her again yesterday while we were on our way up here, and I 
said, where are all the travel trailers? If you listen--this is 
what she says--if you listen to the Garret Graves 10 o'clock 
mayor's show that, you know, we participate in every week, 
we'll have some answers for you. No answers. So that was 10 
minutes before the meeting, and we still have no answers, we 
still have no travel trailers, we still have no place for our 
folks to go live, period.
    One of my FEMA friends showed up about a week after the 
flood: Mayor, I need a block of 10 rooms at a hotel so I can 
bring some FEMA folks over to go to work. I said, man, I wish I 
had 10 rooms to give you. I wish I had a hotel to even send you 
to. I had nine. All of them are under water. Where have you 
been? Were you not paying any attention to what was going on in 
the national media? And you drive into my city and you want a 
block of 10 rooms? That is how ridiculous and how broken the 
entire system is. No compassion, no common sense.
    About 2 days later, 3 days later, another gentleman calls: 
Mayor, I need a place, I need 15,000 square feet of air-
conditioned space so I could put a FEMA DRC. I wish I had 
15,000 feet of air-conditioned space that I would give you. But 
you could set up in a parking lot somewhere; I could probably 
find you a spot. Oh, no, Mayor, it's too hot outside. Yes, sir, 
it is. How well do I know.
    But there's one young guy, Mark Wilson I think he is. Him 
and I got together last week and, in a matter of about 48 
hours, made direct contact, got a DRC at the Bass Pro parking 
lot, made one phone call to the store manager and one phone 
call to headquarters--done, just like that.
    So you do have some good people, but the system is 
positively broken. No sense, no common sense, and very little 
compassion when you get on the street.
    Mr. Graves of Louisiana. Thank you.
    Mayor Ramsey, may I just ask you to briefly answer the same 
question?
    Mr. Ramsey. I would. With your permission, though, prior to 
that, since the Katrina comment issued a nerve, I want to make 
sure that they understand: The context that that was made in 
was that I was told by FEMA that they had learned many lessons 
since Katrina. This was in my statement, that you can't use a 
cookie-cutter approach. You cannot use one method to make 
everything work.
    Katrina was different because the city flooded and 
everybody was evacuated and it was weeks, if not months, before 
people were allowed back. The people in our area came back 2 to 
3 days later, and FEMA was trying to treat it the same way. You 
know, they had days, weeks, months for some of the response to 
the homes in New Orleans. They don't have that in Livingston 
Parish because people are there gutting their homes 2 days 
after the water went down.
    And, Mr. Richmond, in all due respect, it was not a 
reflection on the people of New Orleans versus the people of 
Livingston. It was the comment that was made to me by FEMA 
representatives who said they had learned so many lessons since 
Katrina. So I want to make sure that statement's straight and 
there's no misunderstanding. And, yes, part of it is, in the 
heat of the moment, sometimes things are said that aren't taken 
directly in context.
    I will confirm what Mayor Landry said. Mark Wilson has been 
very good to help us out. He's been frustrated. I didn't even 
get an assistance center until I read on Facebook that they 
were putting one in Livingston. How many homes did Livingston 
flood? Do you know? I think there were maybe three or four.
    I went over to the assistance center that was set up in 
Livingston. I walked in the room. There were 10 FEMA people 
helping 1 person. And I said, ``What the heck are you guys 
doing here? Why aren't you at Walker--I know you can't get to 
Denham yet, but why aren't you at Walker?''
    ``We don't have a place to set up.''
    ``You can have my courtroom.''
    ``We can use your--"
    ``right now. Come on.''
    At noon, they were there. They helped 300 people in the 
next 2 days, and they were backed out till 7 and 8 o'clock at 
night every night after that.
    My DRC only went up Sunday. Now, 3 weeks ago or 2-1/2 weeks 
ago, they asked me if I wanted a DRC. ``Yes, sir.''
    ``You find me a location.''
    So I found all of the dry warehouse space that we had left 
in Walker on Burgess or Florida, and I didn't hear back from 
them for a week.
    A week later, I called and I said, ``Mark, what happened to 
my DRC?''
    ``Well, they're having trouble trying to figure out if 
these are usable.''
    I said, ``Well, that's not acceptable.''
    Well, they sent somebody out, we reviewed each place, they 
rejected all of them. So they set up our DRC in Sidney 
Hutchinson Park on an asphalt lot with portable air 
conditioners. But, again, it's 3 to 5 miles away from where the 
disaster hit. It's hard for people to get out there.
    So that's been my issue, is locations seem to be convenient 
for FEMA, not what works best for the area that you're in.
    Mr. Graves of Louisiana. Thank you, Mayor.
    I want to recognize that we've been joined in the hearing 
by Senator Landrieu, who I know has been in this exact 
situation in the past and worked tirelessly on the recovery of 
Hurricane Katrina and certainly has some insight for many of us 
here today.
    Thank you for being here.
    And I went to yield to our distinguished majority whip, 
Congressman Scalise.
    And, Congressman, obviously, my earlier comments were in 
jest. We appreciate what you're doing.
    So I recognize the gentleman from Louisiana for questions.
    Mr. Scalise. Well, thank you, Congressman Graves.
    Appreciate the Governor and our other panelists for being 
here.
    Obviously, over the last few weeks, we've been working, 
number one, to do everything we can to try to make sure that 
the Federal agencies that are involved are doing everything 
they can. I think it's important to hear from the mayors on the 
ground about the challenges.
    And, you know, like every major disaster, each one's 
different. Clearly, this is a lot different than Katrina. I 
went through a lot of those issues as a State representative 
but working on a lot of different problems. And you just--you 
know, ultimately, our jobs ought to be finding out what the 
problems are and breaking through the red tape. And there's 
been some red tape identified that we've got to keep breaking 
through.
    And we've been meeting as a delegation on a number of those 
issues with the Governor, and our main objective is going to be 
making sure that the response that has to come from Washington, 
especially any congressional action that's required, is 
something that we come together on and then focus it on making 
sure it helps people get back in their homes. That has to be 
the top priority.
    And as we've been having our conversations, both going out 
in the field and--you know, every time I've been out there, you 
learn new things, you find out other things that we can do to 
help break through that red tape. But then we've got to make 
sure that our response from Washington is targeted on 
responding to this storm in the most effective way, learning 
from other mistakes, which, obviously, over decades of 
disasters, including what we've experienced firsthand in 
Louisiana, that we don't make those mistakes again.
    So I appreciate what you all are doing. Continue to let us 
know how we can help you resolve those problems. Because the 
problems are real. Many of these problems are solvable. And if 
agencies aren't operating in the most effective way to help you 
get the relief you need, we're all going to be united in making 
sure that gets fixed.
    And it's got to get fixed quickly, because, as you said, 
this isn't a case where maybe somebody waited 2 or 3 weeks and 
couldn't even get back in their community. People have already 
been gutting their houses 4 weeks now, trying to get back in. 
So the response is going to have to be targeted to this 
disaster in a different way and in a direct way.
    So I appreciate what you all are doing. Continue to work 
with us. Let us know what we can do to help.
    Governor, we're going to continue meeting. I know we're 
going to be meeting again with you as a delegation in the next 
few days. And we will continue to be talking to our colleagues 
up here.
    And the good news is, you know, as you see a disaster that 
shows the worst of Mother Nature, it also shows the best of 
people. And we've seen an incredible response. I've just in the 
last few days we've been back up here heard from so many 
Members of Congress from all across the country, from both 
parties, that want to help us. And they sincerely understand 
what's happened and want to help. They don't completely 
understand the gravity, but they definitely understand that 
there was major devastation and want to offer any help that 
they can. And believe me, we've been making a list. But this is 
going to be something that we're going to all have to continue 
to work on and make sure that we get it right.
    So thanks for what you're doing. We're going to continue to 
work with you. And let's all work together to get it done the 
right way.
    I yield back.
    Mr. Graves of Louisiana. I yield to the gentleman from 
Louisiana, Mr. Richmond, for questions.
    Mr. Richmond. Let me just try to summarize where I think we 
are and where I think it would be helpful if we could go.
    The three problems or areas I see that are the most 
frustrating: One is speed, the speed in which things are 
getting done; two, people having decisionmaking authority being 
in the places they need to be; and, three, deference to our 
local officials that they actually know what they're talking 
about.
    You know, we're not actually part of the problem; we're 
actually part of the solution. So when a man says, hey, you can 
have my courtroom, or this spot would be very good for a DRC, 
it's because he knows it's accessible, he knows that people 
will go there, and he knows that he can get it up and standing 
tomorrow.
    And I have seen the way that FEMA has worked with our 
Governor, and it has been very good, but you can't run 
everything through the Governor. I think that that's unfair to 
him, and I think that's unfair to our local mayors, who are the 
closest to the people on the ground. And even the parish 
presidents--some parish presidents are overwhelmed. Some parish 
presidents are, you know, unable to do it. But the mayors are 
closest to the people in those communities.
    And if they have somebody who has the decisionmaking 
authority, that when they make a call like a location for a 
DRC, what's wrong with deferring to them? If they make a 
mistake, it's the locals making a mistake. Let's actually give 
them the ability to make decisions so that we don't have to 
talk about 3 weeks of where the DRC is going to be, that at 
least those little problems can be resolved.
    The other thing is, Mr. Robinson, modular units could be 
effective in this particular storm. And I know that FEMA has 
approved modular units before. I think you called them cottages 
and other things. Can FEMA approve modular units for this 
disaster?
    Mr. Robinson. Are you speaking other than the manufactured 
housing units we're bringing in?
    Mr. Richmond. Yes.
    Mr. Robinson. I'll have to get back with you on that.
    Mr. Richmond. Okay. Let me just say modular units, I think, 
could get there faster. They can be part of a permanent 
solution sometimes. And they make a lot more sense when they're 
all done and we offer the homeowner the ability to purchase 
them. Because then, all of a sudden, in the backyard they 
become man- or woman-caves or they become deer stands or 
whatever we can do. But we can get them there quickly, and they 
can be part of a long-term recovery.
    The second thing is I'm told and our research tells us that 
FEMA has utilized the practice that I talked about that State 
Farm utilized, and it was called--you all used GPS and flood 
inundation estimates to come up with a damage assessment.
    Why can't we do this in this case in the areas that we know 
people didn't have flood insurance and we can tell by GPS and 
the estimates and pictures about how much water they received?
    Mr. Robinson. So, Congressman, we have used that to 
expedite some of the assistance. So we expedited rental 
assistance, we expedited flood insurance claims based on 
looking at some of that geospatial information on flood depth.
    Mr. Richmond. Right, but not the homeowner damage or--and I 
guess I'm getting back to the same thing, and I don't want to 
keep doing it publicly. I'd love to be able to have this 
conversation in private so we can really delve into all of the 
things that we know houses that receive all that water have to 
do, and how do we get that money to them quickly, and then 
Congress working with our Governor to do it.
    One other thing that I want to make clear for the record, 
because our mayors talked about raising homes and all of those 
things, which actually come under mitigation. We're not saying 
we don't want to mitigate. What we're saying is we want to 
mitigate in a very smart way, which is, if we do our Comite 
project and other things, we will manage the water that we 
receive so that even a thousand-year storm we can survive. But 
that makes a lot more sense, to manage water and create flood 
management areas better, than just coming in, saying, the 
simple way to mitigate is to everybody raise your house.
    In New Orleans, we built--and the Corps, and Congress 
appropriated the money, with a lot of mayors' help. They came 
in and built a flood protection system, and that worked.
    So what I'm saying is we're not afraid of mitigating, and 
we're not asking for you all to treat us any differently and 
not mitigate. What we're saying is we have some of the best 
engineers, and we do know that if we do Comite and some other 
things we will mitigate this from happening again. We just 
don't think you put the onus on the homeowner to raise their 
homes and do all those other things.
    And, with that, Congressman Graves, I'll yield back, but I 
am interested in having a long discussion about the average 
payout and how we can expedite some of that.
    Mr. Graves of Louisiana. If you have time, I'm going to do 
one more brief round.
    I request unanimous consent for Representative Scalise's 
comments to be entered into the record.
    Without objection.
    Mr. Graves of Louisiana. Mayor Shelton, let me ask you a 
question. We've all heard about this elevation-of-home issue 
that may be required for folks that are in the floodplain that 
have experienced significant damage.
    What happens when we elevate homes and businesses all over 
the place but we have a flood?
    Mr. Shelton. You're going to have a worse flood. You're 
going to have little islands in these neighborhoods.
    Mr. Graves of Louisiana. What happens to their cars?
    Mr. Shelton. They're going to lose the cars again.
    Mr. Graves of Louisiana. What happens when they need to go 
to the grocery store or to their job?
    Mr. Shelton. Can't get there.
    Mr. Graves of Louisiana. Does that sound like it makes 
sense? Or do you have an alternative solution?
    Mr. Shelton. Yes. Let them build back where they are. Like 
Congressman Richmond said, this is a one-in-a-thousand-year 
flood, and we're going to do other things to mitigate flooding 
issues. To put this on the homeowner is--it's sad. It's sad. 
They built their homes according to the plans at the time. Now 
we have one storm that's going to change everything, that may 
never happen again in lifetimes to come. It's just not the 
right thing to do.
    Mr. Graves of Louisiana. And so, I assume, build back where 
they are, and build the Comite project----
    Mr. Shelton. That's what I'm saying. Listen, the Comite--
and I didn't realize we were going to get into the Comite River 
diversion canal, but I could talk all day about that. I have 
stated time and time again that I lay this flood and what has 
happened to it and the damage at the feet of the people that 
are dragging their feet to get that canal built.
    Mr. Graves of Louisiana. Thank you.
    Two more questions.
    Mr. Robinson, I want to go back to the sheriff housing 
issue we discussed before. Can you tell me when this issue is 
going to be resolved and approved?
    Mr. Robinson. So I'm working with Jim Waskom from the 
Governor's Office of Homeland Security and Emergency 
Preparedness. He and I had a discussion last night. We're 
working on that again today.
    Mr. Graves of Louisiana. But let's be clear. I don't want 
you to pull the Governor and his staff into this thing. This is 
not their decision. This decision is FEMA's decision. Is that 
correct?
    Mr. Robinson. We're going to----
    Mr. Graves of Louisiana. They're not holding up anything.
    Mr. Robinson. We're going to work very closely with----
    Mr. Graves of Louisiana. Can you just--is the State holding 
up anything here?
    Mr. Robinson. It is not.
    Mr. Graves of Louisiana. Okay. I just want to make that 
clear. Okay. So could you please answer?
    Mr. Robinson. So we're going to identify the need, what's 
the need that we can't solve outside of our Individual 
Assistance program. Right now, we currently have a contract for 
those deputies to stay in a hotel that is paid for by the 
State, which FEMA is reimbursing, and that is through September 
30th, 2016. And we'll work to get a resolution on this as 
quickly as possible.
    Mr. Graves of Louisiana. If you can save money--if you can 
save money, provide a more stable, preferable environment for 
the law enforcement community, why would you not do that? Why 
would you not honor the request of the sheriffs?
    Mr. Robinson. Sir, we're going to work to identify what the 
needs are. One of the things we want to make sure is we don't 
provide funding----
    Mr. Graves of Louisiana. They've already identified a plan. 
They've identified the plan. They've proffered that to you. 
We've been talking about it now for over a week.
    Mr. Robinson. So we want to make sure that the individuals 
go in there would be eligible to receive our assistance so we 
don't end up with a recoupment issue that may come back later.
    Mr. Graves of Louisiana. So we're going to continue to have 
a bleeding of deputies, deputies leaving the forces, the law 
enforcement community continuing to have instability in their 
lives, while you continue to plow through this.
    You don't think that the sheriff is in touch with his 
deputies and is aware of their situation better than FEMA?
    Mr. Robinson. Sir, we're going to continue to work with the 
sheriff, the State, and we'll update you on where we are on the 
status of this.
    Mr. Graves of Louisiana. Can you just tell me when an 
answer is going to be made?
    Mr. Robinson. I will have to get back with you on that.
    Mr. Graves of Louisiana. And I think it's ridiculous. I 
do.I think it's ridiculous. This is why people get so 
frustrated and why there are T-shirts that use an alternative 
acronym for ``FEMA'' on Bourbon Street. This is why.
    I--let me check and see. I just want to make mention that 
this whole rotating FEMA officials and comparably rotating 
answers from FEMA officials is unacceptable. The mayor of 
Zachary told me, if I remember right, that he is on his 70th 
FEMA official that is his contact since Hurricane, I think it 
was Gustav--70th, seven-zero. It's just ridiculous what goes on 
and the inconsistency of answers, the inconsistency of 
treatment of folks that are already in a crisis-type situation.
    And I want to recognize Mr. Richmond for closing remarks--
questions or closing remarks.
    Mr. Richmond. Well, Congressman, I might be able to help 
you with that last one. If we give some of our Federal workers 
a raise, we might be able to keep them around a little bit 
longer.
    Let me add just a couple things.
    And part of what we find is that FEMA is terrified to do 
things because they're worried about what the IG is going to 
come back later and say. And, Congressman Graves, I think we 
need to figure out a way to rein in the IG in terms of 
decisions that are made by FEMA in an emergency. And Senator 
Landrieu will know this, but we have to give FEMA the benefit 
of the doubt that the decisions they make during a storm are 
right and proper.
    And then, that way, when our sheriffs are asking for a 
trailer park or any other thing so that they can put their 
first responders, we don't need the IG coming back 2 years 
later saying, ``Well, we looked at every officer, and this 
officer's damage didn't quite meet the criteria, so we need you 
to go recoup the money.''
    And, Mr. Robinson, those types of things, you're the person 
that can tell us that. You're the only person that can really 
tell us where your red tape is based on reluctance to take a 
chance because you may get spanked by the IG 3 or 4 years 
later.
    Senator Landrieu and I had to pass legislation so that the 
IG and FEMA didn't come back years later to recoup money from 
Louisiana citizens who, through no fault of their own, didn't 
provide one false document, didn't answer any question 
incorrectly, but received benefits because of FEMA's 
determination, the IG asked FEMA to go back and recoup all of 
that money from Louisiana citizens.
    And we cannot be paralyzed by the fear of the IG coming 
back a couple years later. And if there is something we can do 
to help with that, please let us know, because I'm willing to 
take it on. And it's not about fraud and abuse. It's about 
giving FEMA the discretion to make decisions without fear, 
because fear is holding up this process.
    Governor, let me just give you a chance to close. And is 
there anything we talked about today that you need that you 
didn't get a chance to more fully go into, besides the CDBG, 
the Social Service Block Grants, Comite River funding----
    Governor Edwards. And the transportation backlog.
    Mr. Richmond. And the transportation backlog.
    And let's be clear about that 740 million. We're not asking 
for that for Louisiana.
    Governor Edwards. That is correct.
    Mr. Richmond. The problem is that is a backlog all around 
the country and we are now at the end of that train. So, by 
helping us, you're going to help all the other States that are 
ahead of us in order to get to us.
    Governor Edwards. Correct.
    And I appreciate the opportunity to say this again. We want 
the assistance that we need through the Community Development 
Block Grant program and the other items that you just mentioned 
to fully recover as soon as possible, but also to give to the 
people of Louisiana the peace of mind to make decisions now, 
knowing that help is on the way.
    And the longer we procrastinate in moving a supplemental 
appropriation for this Community Development Block Grant 
program, for example, the more people, unfortunately, who are 
going to make decisions that it just isn't worth their while to 
stay in their communities, to stay in their houses, and we will 
see a much longer, harder road to recovery than we should have.
    So I appreciate the opportunity to----
    Mr. Richmond. And for all of the mayors--because I think, 
of course, that I'm right when I say that you're the closest to 
the people, because you live in the communities, you eat in the 
communities, and you talk to everybody, and you go to church 
with them.
    Do you agree with the Governor's assessment that inaction 
by Congress or slow determination of a supplemental or CDBG is 
going to damage the long-term recovery of Denham Springs, 
Central, and Walker?
    Mr. Ramsey. Absolutely.
    Mr. Landry. Yes.
    Mr. Shelton. Absolutely. We can't stand any delays. We need 
things sped up.
    Mr. Ramsey. People need some reassurance that there's a 
hope, that there's a future, and they need it now.
    Mr. Richmond. Thank you.
    And I'm glad that the chairman is back because I want to 
publicly again thank him not only for having this hearing but 
thank him for actually coming down to view the damage while, 
unfortunately, when this storm happened, the world was paying 
attention to the Olympics and a contested Presidential debate, 
and you took the time to come down.
    And your visit highlighted it, and this committee hearing 
will also highlight it to the country that this was the fourth-
largest event, and there are over 100,000 people that are truly 
affected by this incident, who, but for a thousand-year storm, 
would not find themselves in that place.
    So thank you again, Mr. Chairman.
    Mr. Mica. [presiding.] Well, I thank you and Mr. Graves for 
your leadership on the ground.
    I can't imagine, as a Member of Congress, having this level 
of devastation in my district. Again, what I saw was people not 
whining, people who stepped up to the plate. It was the local 
citizens, the local leaders to put this together.
    And they had learned some from Katrina. And they went in 
and they gutted their houses. Of course, they'd lost their 
possessions and their dreams and their hopes, everything that 
you work your life for. And they're so stoic. They joined 
together, helping each other.
    They've saved the shell of those homes, but we have no 
program in place to help them really with housing. That's still 
a huge deficit. What we saw, the Federal response, was just 
unacceptable with housing. We've got to learn from, again, the 
staging of water and other essential--I can't believe that that 
went south on us in this instance.
    The other thing--let me just say this too, Mr. Robinson. I 
talked to Administrator Fugate also about this. There are 
143,000 claims, but people cannot find out where they stand.
    Now, in this day of electronics, most of them have mobile 
phones; they survived. Some of them don't have access to a 
computer but can get to one. But they can't find the status of 
their claims or talk to anybody. You dial the numbers that are 
given and you find someone, and they're manned by people who 
don't have a clue of where their case is.
    So, for them to get their home and their act together and 
their lives back together, they've got to know the status, 
they've got to get an answer. They're not getting those 
answers, okay? And I don't know why we can't have an app that 
tells exactly the status of their case, the information that's 
being inputted. We have the case descriptions.
    I see Mr. Mathews out there, the staff director of the 
Economic Development, Public Buildings, and Emergency 
Management Subcommittee on Transportation.
    But we need a requirement, almost, for the agency to have 
some means of people finding out where they stand. They can't 
go to a bank. They can't remortgage. Should they put the money 
in the house to repair it under the plan that's being provided? 
They just don't know, and we don't communicate.
    Getting those disaster relief centers also to the shelters. 
They finally, I think, some of them, came. But we were 
transporting people to some--trying to transport them to some 
locations. They got no decisions there, back and forth. This is 
a three-ring circus, trying to get answers, and no one had the 
answers.
    So, in this age of electronics, we could get some of that 
data up to a better management of their cases.
    And then the flexibility. I don't know if a--will a waiver 
work, Mr. Robinson, to assist these people on this unique 
basis? Will a waiver work? I mean, do you have the capability 
of waiving some of the requirements of--Mr. Richmond talked 
about changing the Stafford Act. Do you need--and I discussed 
with Ms. Duckworth. Can we send you a letter saying that we 
would request waivers on this? Do you have that ability under 
the law?
    Mr. Robinson. Sir, we have made some unique changes to 
allows the Governor's program--we have expedited assistance 
under the Flood Insurance Program to expedite----
    Mr. Mica. Okay. Well, I want by Monday a list of any 
changes you see that the law does not allow you to deal with 
this unique type of disaster, okay? By Monday at close of 
business, I want to see from FEMA what's missing.
    Do you know--it doesn't appear that you have the 
information, but do you know that, under the reserves that we 
have for FEMA for disasters, that this size disaster can be 
handled with the programs that you have with existing reserves?
    Mr. Robinson. Based on the information today, we do have 
the funding that we need.
    Mr. Mica. Okay. That's what Administrator Fugate had told 
me.
    Now, that does not include CDBG, which is under HUD. Our 
subcommittee has authority under HUD, and I'll direct staff to 
look at the CDBG, the reserves that they have, and the ability 
to shift funds into CDBG to meet that on an immediate need.
    We're struggling to fund the new fiscal year, which starts 
October 1st. It's going to be, unfortunately, a couple weeks 
before we get in place a CR. Mr. Graves and Mr. Richmond and 
the Louisiana delegation need to immediately address the 
leadership and--I know they're working on this--and the 
appropriators to make certain that those funds are available 
immediately, if not sooner, either in a transfer from existing 
accounts--I don't know what their reserves are. But that would 
help with the CDBG grants, which is probably the fastest thing. 
And these local leaders can get that out and into place.
    But we do need to look at all the things that went wrong. 
The modular units--Mr. Mathews, the staff director, we need to 
have a roundtable as soon as possible and find out how it could 
go so wrong to end up with a thousand or more of these units, 
which is just--you know, it's nothing to deal with the size and 
scope of this problem. And then the cost, the inapplicability 
of the location of these units, the whole--and then the 
staging. What do we have? Five? Seventeen units up? It's 
absolutely pitiful.
    So those are some issues that have been raised. While we 
may seem critical, yes, we are critical, because we are 
entrusted with the people to help the people who need our need 
in time of a natural disaster, and it hasn't worked that way. 
We've got to work to get it right.
    And, finally, Mr. Graves and I flew over the canal. What's 
the name of the canal? The Comite River. I called it a canal. 
That's a 123-million--or whatever it is--million-dollar project 
which would probably prevent this happening again if we'd spent 
the money, and it's decades that the project has sat there.
    So it's a Corps of Engineers project. Mr. Graves, Mr. 
Richmond, I think that needs to be addressed through 
transportation appropriations, which underneath that is the 
Corps of Engineers, Water Resources Subcommittee. Talk to 
Chairman Shuster, Mr. Gibbs, and others, but then we also have 
to go to the appropriators, because they're authorizers, to 
make certain that the funds are available so that this natural 
disaster doesn't occur in the future. And I think that might be 
beneficial, to do that.
    So there are a host of issues that have been raised today. 
This is, again, one of the greatest human disasters to befall 
the United States in a generation or more. We need a better 
response. We still have people without homes. We still have 
people in need. We still have a huge challenge before us.
    I can't thank the mayors enough for their leadership. What 
you did on the ground, long before the Federal Government was 
there, in working with your citizens and your communities. I 
thank the Governor for coming today and being part of this. And 
I challenge FEMA that we've got to do a better job in meeting 
our Federal responsibility.
    Mr. Richmond, any comment?
    Mr. Graves?
    Again, I thank everyone for being with us today, for your 
testimony, and, again, your participation.
    I just saw our vice chairman came in.
    We apologize also. The remembrance ceremony for the victims 
of 9/11 took place on the Capitol steps a few minutes ago, so 
we've had a disruption in the regular order of business. So we 
will not be here on 9/11, and that's part of the reason that 
members have come and gone.
    Mr. Vice Chairman, did you have any closing comment?
    Mr. Grothman. No. I'd just like to thank the witnesses for 
appearing here. It's certainly very helpful.
    Mr. Mica. Thank you.
    And, again, I thank Ms. Duckworth and the minority for 
working with us. This isn't a partisan issue in any way. This 
is an issue that has affected hundreds of thousands of great 
Americans.
    I thank you again for being with us and coming. We've got 
some work ahead of us. We all will pledge to work together.
    There being no further business before this subcommittee, 
this hearing is adjourned. Thank you.
    [Whereupon, at 11:26 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
